<html>
<title> - CRISIS IN SYRIA: IMPLICATIONS FOR HOMELAND SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





          CRISIS IN SYRIA: IMPLICATIONS FOR HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2013

                               __________

                           Serial No. 113-32

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE

86-246 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001


















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                               Witnesses

The Honorable Christopher Shays, Former Representative in 
  Congress From the State of Connecticut:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Major General Robert H. Scales, Jr. (Ret. U.S. Army), Former 
  Commandant of the U.S. Army War College:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Thomas Joscelyn, Senior Fellow, Foundation for the Defense of 
  Democracies:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Mr. Stephen Biddle, Adjunct Senior Fellow for Defense Policy, 
  Council on Foreign Relations:
  Oral Statement.................................................    16
  Prepared Statement.............................................    17

 
          CRISIS IN SYRIA: IMPLICATIONS FOR HOMELAND SECURITY

                              ----------                              


                      Tuesday, September 10, 2013

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:08 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Miller, 
Meehan, Duncan, Marino, Barletta, Stewart, Hudson, Daines, 
Brooks, Perry, Sanford, Thompson, Jackson Lee, Clarke, Higgins, 
Richmond, Payne, O'Rourke, Gabbard, Vela, and Horsford.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to examine the crisis in 
Syria and the implications for the homeland. The Chairman 
wishes to remind our guests today that demonstrations from the 
audience, including the use of signs, placards, and T-shirts, 
as well as verbal outbursts, are a violation of the Rules of 
the House and will result in a removal from the hearing room. I 
now recognize myself for an opening statement.
    For 2 years, Americans have known a brutal war is being 
waged in Syria. The atrocities witnessed almost a month ago 
shocked the world and have demanded tough choices from the 
United States. However, horrific acts should not spur unwise 
reactions, and we must thoroughly examine the realities of 
military intervention in a civil war. Today we gather to 
examine both the Assad regime and the opposition forces that 
are caught in a bloody civil war. Specifically, we will look at 
what role America might play in this deadly conflict and what a 
military strike against Syria could mean for our National and 
Homeland Security.
    Yesterday, Syrian President Assad said the United States 
should expect everything in response to military strikes in 
Syria, and last week the United States intercepted an order 
from Iran to militants in Iraq to attack the U.S. embassy in 
Iraq and other American interests. On the same day, the FBI 
warned the possibility of U.S. military action could escalate 
cyber attacks by pro-Syrian or other aligned actors.
    Ultimately, the United States must weigh the ripple effects 
of its actions. Many Members of Congress have made the point 
that America's credibility is on the line, while others have 
maintained that the administration's wavering response to 
Assad's brutal tactics over the past year cannot be fixed with 
an unbelievably small military action, as Secretary Kerry 
described the strikes yesterday.
    What America must determine is what its support for either 
side means and the consequences for the United States. An 
unbelievably small intervention as described by the Secretary 
could elicit an unbelievably damaging chain of events for the 
United States.
    Make no mistake, punishing Assad is a noble mission. Based 
on the briefings we have received, it is conclusive that he 
used chemical weapons against his own people. But damaging the 
regime's command and control posts will have the effect of 
helping the rebels. The Assad regime's decades of oppression 
have undoubtedly brought this revolution, but the moderate 
resistance has been infiltrated with some of the fiercest 
Islamist fighters in the world.
    Our country strongly condemns the use of chemical weapons. 
They are some of the most egregious methods of warfare known to 
mankind. The Assad regime has used them for many months and has 
killed many innocent people. Americans have great compassion 
for the victims. However, as we look at the Syrian crisis, we 
must be realistic and take into account the fact that the 
resistance movement is now dominated in some regions by a host 
of Islamist extremist factions such as al-Nusra, an al-Qaeda 
affiliate. While the administration contends that we can 
support the rebels and differentiate between the moderate and 
extremist wings, the reality is that they are now working 
together. Any U.S. military strike against the Assad regime 
will also benefit the extremists fighting him, who will 
undoubtedly use Assad's weapons against American allies and 
interests and possibly even our homeland if given the chance.
    This is all put in unique focus as we observe this week 
both the anniversaries of the attacks in Benghazi and those on 
September 11, 2001. Al-Qaeda perpetrated both attacks, and 
there is serious concern that if Assad falls, the extremist 
wings of the rebel movement will fill the vacuum and take over 
Assad's arsenal of chemical weapons. Sadly, in places like 
Libya and Egypt, we have seen that dictators are rarely 
replaced by moderates.
    This fact is why my main concern has been and remains the 
security of Assad's chemical weapon stockpiles. We have known 
of his growing arsenal for decades, and the President's strike 
plan will not secure them. Securing these weapons will take an 
international coalition that will ensure they can neither be 
used by Assad or the extremist elements of the rebel forces.
    Since the strikes will not accomplish this goal and could 
draw our country into a prolonged and major conflict, I remain 
concerned about the President's widely-telegraphed plan. Today 
I hope we can discuss the ripple effects of our action or 
inaction in the Syrian conflict, and I appreciate the witnesses 
for sharing their expertise here today.
    After years of indecision, the President has sent this 
decision to Congress, and our deliberation will help shape the 
way forward.
    With that, the Chairman now recognizes the Ranking Member 
for his opening statement.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           September 10, 2013
    For 2 years, Americans have known that a brutal war is being waged 
in Syria. The atrocities witnessed almost a month ago shocked the 
world--and have demanded tough choices from the United States. However, 
horrific acts should not spur unwise reactions, and we must thoroughly 
examine the realities of military intervention in this civil war.
    Today we gather to examine both the Assad regime and the opposition 
forces that are caught in a bloody civil war. Specifically, we will 
look at what role America might play in this deadly conflict and what a 
military strike against Syria could mean for our National and homeland 
security.
    Yesterday, Syrian President Assad said the United States should 
``expect everything'' in response to military strikes in Syria, and 
last week, the United States intercepted an order from Iran to 
militants in Iraq to attack the U.S. Embassy in Iraq and other American 
interests. On the same day, the FBI warned that the possibility of U.S. 
military action could escalate cyber attacks by pro-Syrian or other 
aligned cyber actors.
    Ultimately, the United States must weigh the ripple effects of its 
actions. Many Members of Congress have made the point that America's 
credibility is on the line, while others have maintained that the 
administration's wavering response to Assad's brutal tactics over the 
past year cannot be fixed with an ``unbelievably small'' military 
action, as Secretary Kerry described the strikes yesterday.
    What America must determine is what its support for either side 
means, and the consequences for the United States. An ``unbelievably 
small'' intervention, as described by the Secretary, could elicit an 
unbelievably damaging chain of events for the United States.
    Make no mistake, punishing Assad is a noble mission. Based on the 
briefings we have received, it is conclusive that he used chemical 
weapons against his own people. But damaging the Regime's command-and-
control posts will have the effect of helping the Rebels. The Assad 
Regime's decades of repression have undoubtedly wrought this 
revolution, but the moderate resistance has been infiltrated with some 
of the fiercest Islamist fighters in the world.
    Our country strongly condemns the use of chemical weapons. They are 
some of the most egregious methods of warfare known to mankind. The 
Assad Regime has used them for many months, and has killed many 
innocent people. Americans have great compassion for the victims, 
however as we look at the Syrian crisis, we must be realistic and take 
into account the fact that the resistance movement is now dominated--in 
some regions--by a host of Islamist extremist factions such as al 
Nusra, an al-Qaeda affiliate.
    While the administration contends that we can support the rebels, 
and differentiate between the moderate and extremist wings, the reality 
is that they are now working together. Any U.S. military strikes 
against the Assad Regime will also benefit the extremists fighting him 
who will undoubtedly use Assad's weapons against American allies and 
interests and possibly even our homeland if given the chance.
    This is all put in unique focus as we observe this week both the 
anniversaries of the attacks in Benghazi, and those on September 11, 
2001. Al-Qaeda perpetrated both attacks, and there is serious concern 
that if Assad falls, the extremist wings of the rebel movement will 
fill the vacuum and take over Assad's arsenal of chemical weapons. 
Sadly, in places like Libya and Egypt, we have seen that dictators are 
rarely replaced by moderates.
    This fact is why my main concern has been, and remains, the 
security of Assad's chemical weapon stockpiles. We have known of his 
growing arsenal for decades--and the President's strike plan will not 
secure them. Securing these weapons will take an international 
coalition, and will ensure that they can neither be used by Assad or 
the extremist elements of the rebel forces.
    Since the strikes will not accomplish this goal and could draw our 
country in to a prolonged conflict, I remain concerned about the 
President's widely-telegraphed plan.
    Today, I hope we can discuss the ripple effects of our action or 
inaction in the Syrian conflict, and I appreciate the witnesses for 
sharing their expertise. After years of indecision, the President has 
sent this decision to Congress, and our deliberation will help shape 
the way forward.

    Mr. Thompson. Thank you, Mr. Chairman.
    Thank you for holding today's hearing.
    I also want to thank the witnesses for appearing here 
today.
    I agreed not to object to the Chairman's motion to seek 
unanimous consent to convene this hearing without the required 
7-day notice. I agreed to this unusual request because of the 
subject matter of this hearing and the need for this panel to 
fulfill its unique jurisdictional mission in assuring that the 
American people know about the potential homeland security 
implications of the United States military intervention in 
Syria.
    But before we discuss the homeland security implications, 
we should begin with the basic facts: The current civil war in 
Syria began 3 years ago as a popular uprising against the Assad 
regime. The popular uprising has developed into an armed 
rebellion and may now be considered a civil war. In the last 3 
years, over 100,000 Syrians have been killed; more than 2 
million people have fled Syria; and 4 million have been forced 
to flee from their homes but remain in Syria. The United States 
has provided approximately $1 billion in humanitarian 
assistance.
    Also, in the last 3 years, Israel has used missile attacks 
to the Assad regime on three separate occasions. The Syrian 
Government has used chemical weapons in small-scale attacks on 
several occasions. Iran and Hezbollah have lent their support 
to the Assad regime and the opposition forces have grown to 
include al-Qaeda affiliates or associates.
    Long-standing religious and regional divisions fuel this 
complicated conflict. Neither the United Nations nor the 
traditional allies have agreed to use military force to 
intervene. As these facts demonstrate, the situation in Syria 
is tragic.
    Mr. Chairman, there is no doubt that this House will have a 
robust debate about whether the United States should pursue 
military action in Syria. However, in this committee, we must 
try to provide an understanding of the possible homeland 
security implications of military action because understanding 
the potential blow-back is as important as understanding the 
current situation on the ground. While the undertaking may be 
somewhat speculative, we must attempt to provide some insight 
on the potential threats.
    First, there is some concern that a military attack against 
Syria may spur retaliatory actions by Iran and Hezbollah 
against the United States, U.S. embassies, or U.S. interests 
abroad. Second, there is concern that Syria or its allies may 
engage in retaliatory attacks against U.S. allies in the 
region, including Israel, Turkey, and Jordan. Because about 15 
to 25 percent of the opposition forces are associated with an 
affiliate of al-Qaeda, there is some concern that a strike that 
weakens Assad may ultimately benefit al-Qaeda. Each of these 
scenarios is possible, but none is self-executing or immediate.
    At this point, we know that the most likely effect on 
homeland security is the action that has already occurred. Mr. 
Chairman, the risk of cyber attacks may be heightened in the 
wake of U.S. military action in Syria. It has been widely 
reported that the Syria Electronic Army, a hacking group loyal 
to the Assad regime, has launched cyber attacks that have 
disrupted the website of U.S. media and internet companies. In 
a few cases, those attacks completely disabled major media 
enterprises, including The New York Times. We have been told 
that this group does not have the capacity to launch attacks 
capable of disrupting critical infrastructure, but we all know 
capacity can change.
    So, Mr. Chairman, as we consider action in Syria, I think 
this Congress should consider the action necessary to protect 
our citizens from the most likely near-term repercussion of 
military intervention in Syria, a massive cyber attack. This 
committee has made several attempts to safeguard the cyber 
environment, yet our efforts have been rejected by my 
colleagues on the other side of the aisle.
    Mr. Chairman, I urge you to once again attempt to move your 
leadership to assure that a meaningful cybersecurity bill can 
come to the House floor in the face of the risk of retaliation 
from the SEA. We must resolve our known cybersecurity 
vulnerabilities.
    Again, thank you for holding this hearing, and I yield 
back.
    [The statement of Mr. Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 10, 2013
    I agreed not to object to the Chairman's motion to seek unanimous 
consent to convene this hearing without the required 7-day notice. I 
agreed to this unusual request because of the subject matter of this 
hearing and the need for this panel to fulfill its unique 
jurisdictional mission in assuring that the American people know about 
the potential homeland security implications of United States military 
intervention in Syria.
    But before we discuss the homeland security implications, we should 
begin with the basic facts. The current civil war in Syria began 3 
years ago as a popular uprising against the Assad regime. The popular 
uprising has devolved into an armed rebellion and may now be considered 
a civil war. In the last 3 years, over 100,000 Syrians have been 
killed; more than 2 million people have fled Syria, and 4 million have 
been forced to flee from their homes but remain in Syria.
    The United States has provided approximately $1 billion in 
humanitarian assistance. Also, in the last 3 years, Israel has used 
missiles to attack the Assad regime on three separate occasions; the 
Syrian government has used chemical weapons in small-scale attacks on 
several occasions; Iran and Hezbollah have lent their support to the 
Assad regime and the opposition forces have grown to include al-Qaeda 
affiliates or associates. Long-standing religious and regional 
divisions fuel this complicated conflict.
    Neither the United Nations nor our traditional allies have agreed 
to use military force to intervene.
    As these facts demonstrate, the situation in Syria is tragic. Mr. 
Chairman, there is no doubt that this House will have a robust debate 
about whether the United States should pursue military action in Syria.
    However, in this committee, we must try to provide an understanding 
of the possible homeland security implications of military action 
because understanding the potential ``blow-back'' is as important as 
understanding the current situation on the ground. While this 
undertaking may be somewhat speculative, we must attempt to provide 
some insight on the potential threats.
    First, there is some concern that a military attack against Syria 
may spur retaliatory actions by Iran and Hezbollah against the United 
States, U.S. embassies, or U.S. interests abroad. Second, there is 
concern that Syria or its allies may engage in retaliatory attacks 
against U.S. allies in the region, including Israel, Turkey, and 
Jordan. Because about 15-25% of the opposition forces are associated 
with an affiliate of al-Qaeda, there is some concern that a strike that 
weakens Assad may ultimately benefit al-Qaeda. Each of these scenarios 
is possible but none is self-executing or immediate.
    At this point, we know that the most likely effect on homeland 
security is the action that has already occurred. Mr. Chairman, the 
risk of cyber attacks may be heightened in the wake of U.S military 
action in Syria. It has been widely reported that the Syrian Electronic 
Army (SEA), a hacking group loyal to the Assad regime has launched 
cyber attacks that have disrupted the websites of U.S. media and 
internet companies. In a few cases, those attacks completely disabled 
major media enterprises, including The New York Times. We have been 
told that this group does not have the capacity to launch attacks 
capable of disrupting critical infrastructure, but we all know, 
capacity can change.
    So Mr. Chairman, as we consider action in Syria, I think this 
Congress should consider the actions necessary to protect our citizens 
from the most likely near-term repercussion of military intervention in 
Syria--a massive cyber attack. This committee has made several attempts 
to safeguard the cyber environment. Yet, our efforts have been rejected 
by my colleagues on the other side of the aisle. Mr. Chairman, I urge 
you to once again attempt to move your leadership to assure that a 
meaningful cybersecurity bill can come to the House floor. In the face 
of the risk of retaliation from the SEA, we must resolve our known 
cybersecurity vulnerabilities.

    Chairman McCaul. Let me thank the Ranking Member for as 
usual your cooperative manner and bipartisan spirit in waiving 
the rule so we can have this hearing here today. I can't tell 
you how much I appreciate that.
    Second, it is very timely that you bring up the cyber 
issue. I, too, agree that the longer we fail to act the more 
danger we put this Nation in jeopardy of. We do have a draft 
cyber bill that, as I mentioned earlier, I am presenting to 
you, and our intention is to file and introduce this bill this 
week. So we thank you again.
    Other Members are reminded that opening statements may be 
submitted for the record.
    We are pleased to be joined by four distinguished witnesses 
to discuss this important topic today. One, a colleague, a 
friend of mine, served in the House for many years, the 
Honorable Chris Shays. Mr. Shays represented the southwest 
region of Connecticut from 1987 to 2009 in the United States 
Congress. He is now a distinguished fellow in public service at 
the University of New Haven.
    A moderate Republican, who is socially progressive and 
fiscally conservative, Shays has a strong record of reaching 
across the aisle to solve our Nation's problems. Shays co-
chaired the Commission on Wartime Contracting in Iraq and 
Afghanistan, a bipartisan commission charged with evaluating 
and improving America's wartime contracting. He chaired the 
Oversight and Government Reform Subcommittee on National 
Security and Emerging Threats and International Relations, 
playing a major role in reforms that followed September 11.
    At the forefront of the fight against terrorism before it 
was popular, Shays was instrumental in creating the Department 
of Homeland Security. He was the first Member of Congress to 
travel to Iraq after the fall of Saddam Hussein, returning 
numerous times to help secure better protective body armor and 
bomb-resistant vehicles for our troops.
    Often traveling outside the umbrella of the military, he 
worked closely with the Iraqi people and NGOs, such as Save the 
Children and Mercy Corps. Following each trip, Shays outlined a 
series of observations and recommendations for then-President 
Bush, Defense Secretaries Rumsfeld and Gates, and others in the 
administration.
    Our next witness is General Robert Scales. He is one of 
America's best-known and most-respected authorities on land 
warfare. He is currently president of Colgen, Incorporated, a 
consulting firm specializing in issues related to land power, 
war gaming, and strategic leadership. Prior to joining the 
private sector, Dr. Scales served over 30 years in the Army, 
retiring as a major general. General Scales served in command 
and staff positions in the United States, Germany, and Korea 
and ended his military career as commandant of the United 
States Army War College.
    Thanks for being here.
    Next is Mr. Thomas Joscelyn, senior fellow at the 
Foundation for Defense of Democracies. Mr. Joscelyn is a 
terrorism analyst and writer living in New York. Most of his 
research and writing has focused on how al-Qaeda and its 
affiliates operate around the world. He is a regular 
contributor to the Weekly, Daily and Worldwide Standard and 
their on-line publications. He is also a senior editor of the 
Long War Journal. His work has been published by National 
Review on-line, the New York Post, and a variety of other 
publications.
    Finally, we have Dr. Steven Biddle, a professor of 
political science and international affairs at the George 
Washington University. His work has been published in Foreign 
Affairs, the Journal of Politics, The New York Times, and the 
Washington Post. Professor Biddle has served on the Defense 
Policy Board and holds an appointment as adjunct senior fellow 
for defense policy at the Council on Foreign Relations.
    The witnesses' full written statements will appear in the 
record.
    The Chairman now recognizes Congressman Chris Shays for an 
opening statement.

     STATEMENT OF THE HONORABLE CHRISTOPHER SHAYS, FORMER 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Shays. Thank you, Chairman McCaul and Ranking Member 
Thompson and all the other distinguished Members of this 
important committee. I see some familiar faces and new faces, 
and it is really an honor to be in your presence.
    The Cold War is over, and the world is a more dangerous 
place. There is no place more dangerous than the Middle East. 
Yet, in spite of this, we have had no meaningful National 
conversation to help us understand this part of the world and 
its impact on us here at home, so it can't be surprising as a 
Nation that we are now uncertain and divided by about what to 
do in Syria.
    When I took a delegation of Congressmen to the Middle East 
shortly after we invaded Iraq in 2003, we ended our trip 
meeting with the relatively new Syrian president. At our 
meeting, President Assad asked us, what are you hoping to 
achieve in Iraq, and why do you think what you are doing will 
give you the results you want?
    Ironically, we could ask these same questions about our 
present focus on his country. What are we hoping to achieve in 
Syria, and why do we think doing what we are planning on doing 
will give us the results we want?
    When it comes to foreign policy in the Middle East in 
particular, it appears we live in a strategy-free world. You 
are being asked to allow the President of the United States to 
use force, a tactic, when we have no clear sense what the 
strategy and mission is behind the tactic.
    The Syrian Government crossed a red line in the use of 
chemical weapons for which the world community needs to 
respond, not just the United States. The debate centers on 
whether or not to support the President's request to use force 
to punish the Assad government and provide a disincentive to 
other countries to use chemical weapons. We are also being told 
the President and the United States will lose face if we fail 
to take decisive military action.
    The conclusion by the President and his administration and 
leaders on both sides of the aisle that the United States needs 
to take decisive military action with or without support from 
other countries would be a serious mistake with long-term 
consequences.
    What should be our primary concern, that chemical weapons 
were used by the Syrian Army, or that Syria has chemical 
weapons that could fall into the hands of radical elements 
sympathetic to al-Qaeda and other terrorist organizations? A 
military strike will do nothing to address that issue and would 
exacerbate it by accelerating the transfer of chemical weapons 
to people who would do us harm. The overriding question must 
be, who has control of these chemical weapons and how do we 
make sure that they do not fall into the hands of radical 
terrorist organizations that could and would do harm to the 
United States and other countries?
    Rather than focusing on destroying elements of the Syrian 
government forces and choosing sides in a truly brutal civil 
war, our focus should be on how do we get these chemical 
weapons out of Syria and into the hands of the United States 
and/or Russia that have the capability to neutralize these 
weapons and, frankly, have successfully cooperated with each 
other to do that very thing over the last 2 decades?
    I traveled with Senators Nunn, Lugar, Bob Graham, Domenici, 
Mikulski, and Bingham, Representative Spratt and our present 
Deputy Secretary of Defense, Ash Carter, throughout vast parts 
of Russia in May 2002 and saw first-hand this impressive 
cooperation. The Nunn-Lugar Cooperative Threat Reduction 
Program has reduced the threat of nuclear, biological, and 
chemical weapons because the United States and Russia 
recognized the need to do this and did it.
    We need to engage the world community, particularly Russia, 
to persuade Assad to give up his chemical weapons with the same 
motivation inspired by Nunn and Lugar and the same laser 
intensity of our 41st President, President George H.W. Bush, 
when he assembled the coalition to confront Saddam Hussein 
after Saddam's occupation of Kuwait.
    I believe President Obama can rise to the occasion, seize 
this opportunity, avoid the use of military force and help 
restore our Nation's leadership.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Shays follows:]
              Prepared Statement of Hon. Christopher Shays
                           September 10, 2013
    The Cold War is over, and the world is a more dangerous place. 
There is no place more dangerous than the Middle East. Yet in spite of 
this, we have had no meaningful National conversation to help us 
understand this part of the world, and its impact on us here at home. 
So it can't be surprising as a Nation, that we are now uncertain and 
divided about what to do in Syria.
    When I took a delegation of Congressmen to the Middle East shortly 
after we invaded Iraq in 2003, we ended our trip, meeting with the 
relatively new Syrian President. At our meeting President Assad asked 
us, ``What are you hoping to achieve in Iraq? And why do you think 
doing what you are doing will give you the results you want?''
    Ironically, we could ask these same questions about our present 
focus on his country. ``What are we hoping to achieve in Syria? And why 
do we think doing what we are planning on doing will give us the 
results we want?''
    When it comes to foreign policy, and the Middle East in particular, 
it appears we live in a strategy-free world. You are being asked to 
allow the President of the United States to use force, a tactic, when 
we have no clear sense what the strategy and mission is behind the 
tactic.
    The Syrian Government crossed a red line in the use of chemical 
weapons for which the world community needs to respond, not just the 
United States.
    The debate centers on whether or not to support the President's 
request to use force to punish the Assad government, and provide a 
disincentive to other countries to use chemical weapons. We are also 
being told the President and the United States will lose face if we 
fail to take decisive military action.
    The conclusion by the President and his administration, and leaders 
on both sides of the aisle, that the United States needs to take 
decisive military action, with or without support from other countries, 
would be a serious mistake with long-term consequences.
    What should be our primary concern? . . . that chemical weapons 
were used by the Syrian army? . . . or, that Syria has chemical weapons 
that could fall in the hands of radical elements sympathetic to al-
Qaeda and other terrorist organizations?
    A military strike will do nothing to address that issue, and would 
exacerbate it by accelerating the transfer of chemical weapons to 
people who would do us harm.
    The overriding question must be, who has control of these chemical 
weapons? And how do we make sure they do not fall into the hands of 
radical terrorist organizations that could do harm to the United States 
and other countries?
    Rather than focus on destroying elements of the Syrian government 
forces, and choosing sides in a truly brutal civil war, our focus 
should be on how do we get these chemical weapons out of Syria, and 
into the hands of the United States and/or Russia that have the 
capability to neutralize these weapons, and have successfully 
cooperated with each other to do that very thing over nearly 2 decades.
    I traveled with Senators Nunn, Lugar, Bob Graham, Domenici, 
Mikulski, and Bingham, Representative Spratt, and our present Deputy 
Secretary of Defense, Ash Carter, throughout vast parts of Russia in 
May of 2002, and saw first-hand this impressive cooperation. The 
Cooperative Threat Reduction, known as the Nunn-Lugar program, has 
reduced the threat of nuclear, biological, and chemical because the 
United States and Russia recognized the need to do this, and did it.
    We need to engage the world community, particular Russia, to 
persuade Assad to give up his chemical weapons with the same motivation 
inspired by Nunn and Lugar, and the same laser intensity of our 41st 
President George H. W. Bush, when he assembled the coalition to 
confront Saddam Hussein after Saddam's occupation of Kuwait.
    I believe President Obama can rise to the occasion, seize this 
opportunity, avoid the use of military force, and help restore our 
Nation's leadership.

    Chairman McCaul. Thank you, Chris Shays.
    Next the Chairman recognizes General Scales.

  STATEMENT OF MAJOR GENERAL ROBERT H. SCALES, JR. (RET. U.S. 
     ARMY), FORMER COMMANDANT OF THE U.S. ARMY WAR COLLEGE

    General Scales. Thank you, Mr. Chairman and Members of the 
committee. Thank you for the opportunity to address you on the 
subject of the crisis in Syria.
    An American missile strike against Syria might well affect 
American security. We have seen in the past that half-measures, 
ineffective strikes, and shots across the bow against 
diabolical enemies have often resulted in tragic counter-
strikes against American interests at home and abroad. 
President Reagan ordered an air strike against Libya in 1986. 
In time, Qaddafi retaliated with terrorist bombings that killed 
hundreds of Americans aboard Pan Am Flight 103 over Lockerbie, 
Scotland. President Clinton ordered retaliation strikes against 
terrorists who bombed American embassies in Africa. The 
terrorists, unaffected by these missile strikes, were 
emboldened to attack the USS Cole in 2000 and, sadly, later, 
the World Trade Center in 2001.
    A missile strike that does not result in regime change in 
Syria or defeat the Syrian Army can only have a similar impact. 
Failure to defeat Assad will embolden the Syrians to retaliate 
against our homeland as well as Americans abroad. In fact, 
Assad has already telegraphed his intentions to retaliate, 
possibly with chemical weapons.
    While a revenge strike against Syria might endanger the 
homeland, such an action will have virtually no impact on the 
Syrian regime or the course of this bloody sectarian war. Assad 
will likely survive. He and his murderous regime will only 
continue to butcher his people.
    The proposed firepower strike violates every principle of 
war, to include surprise, mass, and a clearly-defined and 
obtainable strategic objective. As the Nation takes a knee, the 
Syrian Army will continue to hide, dispersion, camouflage, and 
secret his strategic systems among the population. What might 
have degraded Assad's force 2 weeks ago will certainly not have 
the intended effects as we delay and continue to telegraph our 
military intent.
    Sadly, the principal motive for risking Americans lives in 
Syria is our ``responsibility to protect'' all of the world's 
innocents. This is not about threats to American security. In 
fact, members of this administration take great pride in the 
fact that their motives are driven by guilt over slaughters in 
Rwanda, the Sudan, and Kosovo, and not by any systemic threat 
to our own country. Are we really willing as a Nation to put 
the lives of our soldiers at risk to serve a purpose unrelated 
to our vital National interests?
    This administration states that a strike is necessary to 
maintain American credibility in the face of threats from 
enemies, such as Iran. Killing more Syrians won't deter Iranian 
resolve to confront us. The Iranians have already gotten the 
message and have internalized our amateur approach and lack of 
resolve.
    In the past, we have used a firepower-only strategy against 
the Serbs and the Libyans. But Syria is not Libya or Serbia. 
Perhaps we have become too used to fighting third-rate armies. 
As the Israelis learned in 1973, these guys are tough and mean-
spirited killers with nothing to lose.
    It is important to remind ourselves that strikes against 
Syria will involve the Nation in a sectarian civil war. Such 
conflicts are by their very nature the most intractable, 
ruthless, long-lasting, and bloody of any form of warfare. If 
the past is prologue, third-party involvement in civil wars 
never ends well for any of the participants.
    These strikes can only end badly for our country. We have 
no legitimate strategic end-state in mind. A strike delivered 
for the purpose of sending a message will only inflame a region 
that does not think well of American motives after 10 years of 
war in the Middle East. Other nations might wish us well in 
this endeavor, but none, other than France, thinks well enough 
of our strategy to risk the lives of their soldiers.
    We may wish to end this with a shot across the bow, but 
history shows time and again that war is the most unpredictable 
of all human endeavors. Once the dogs of war are unleashed, 
even for the most noble of motives, the consequences can only 
be unpredictable and likely to end tragically for this Nation.
    Thank you.
    [The prepared statement of General Scales follows:]
              Prepared Statement of Robert H. Scales, Jr.
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to address you on the subject ``Crisis in Syria: 
Implications for Homeland Security.''
    An American missile strike against Syria might well adversely 
affect American security. We have seen in the past that half-measures, 
ineffective strikes, and ``shots across the bow'' against diabolical 
enemies have often resulted in tragic counter-strikes against 
Americans' interests at home and abroad. President Reagan ordered an 
air strike against Libya in 1986. In time the Libyans retaliated with a 
terrorist bombing that killed hundreds of Americans aboard Pan Am 
flight 103 over Lockerbie, Scotland. President Clinton ordered 
retaliation strikes against terrorists who bombed American embassies in 
Africa. The terrorists, unaffected by these missile strikes, were 
emboldened by attack the USS Cole in 2000 and later the World Trade 
Center in 2001 that killed thousands of innocent Americans.
    A missile strike that does not result in regime change in Syria or 
the defeat of the Syrian Army can only have a similar impact. Failure 
to defeat Assad might well embolden the Syrians to retaliate against 
our homeland as well as Americans abroad. In fact Assad has already 
telegraphed his intention to retaliate, possibly with chemical weapons. 
There is an old military adage that certainly conveys in these 
circumstances: ``If you want to kill the snake cut off the head not the 
tail.'' Limited strikes over a limited time against limited strategic 
objectives in Syria will only cut the tail and embolden the snake to 
strike back.
    While a revenge strike against Syria might endanger the homeland 
such an action will have virtually no impact on the Syrian regime or 
the course of this bloody sectarian civil war. Assad will likely 
survive. He and his murderous regime will only continue to butcher his 
people. The proposed firepower strike violates every principle of war 
to include surprise, mass, and a clearly-defined and obtainable 
strategic objective. As the Nation ``takes a knee'' the Syrian Army 
will continue to hide, disperse, camouflage, and secret his strategic 
systems among the population. What might have degraded Assad's forces 2 
weeks ago will certainly not have the intended effects as we delay and 
continue to telegraph our military intent.
    Sadly the principal motive for risking American lives in Syria is 
our ``responsibility to protect'' the world's innocents. This is not 
about threats to American security. In fact members of this 
administration take pride in the fact that their motives are driven by 
guilt over slaughters in Rwanda, The Sudan, and Kosovo and not by any 
systemic threat to our own country. Are we really willing as a Nation 
to put the lives of our soldiers at risk to serve a purpose unrelated 
to our vital National interests? The American people have answered this 
question. The polls indicate that the American people do not believe 
that the risks are worth the rewards.
    We should not put American lives at risk to make up for a slip of 
the tongue about red lines. This is an act of war done purely for 
retribution and to restore the reputation of a President. This 
administration states that such a strike is necessary to maintain 
American credibility in the face of threats from enemies such as Iran. 
Killing more Syrians won't deter Iranian resolve to confront us. The 
Iranians have already gotten the message and have internalized our 
amateur approach and lack of resolve. But by no means should such 
esoteric excuses for war such as ``credibility'' or the restoration of 
National honor ever be a justification for committing an act of war 
against a country that has never threated us in the least.
    In the past we have used a firepower-only strategy against the 
Serbs and Libyans. But Syria is not Libya or Serbia. Perhaps we have 
become too used to fighting third-rate armies. As the Israelis learned 
in 1973 these guys are tough and mean-spirited killers with nothing to 
lose. It's important to remind ourselves that strikes against Syrian 
will involve the Nation in a sectarian civil war. Such conflicts are by 
their nature the most intractable, ruthless, long-lasting, and bloody 
of any form of warfare. If the past is prologue, third-party 
involvement in civil wars never ends well for any of the participants.
    As in the past we will fire our missiles and likely kill innocent 
Syrians for no justifiable strategic purpose. We know how this war will 
begin but no one in the administration can postulate how it will end.
    For a great power often an effective strategy is to maintain the 
potential for war rather than going to war. Our most respected Soldier-
President, Dwight Eisenhower, possessed the gravitas and courage to say 
no to war 8 times during his presidency. He ended the Korean War and 
refused to aid the French in Indochina; he said no to his former war-
time friends when they demanded American participation in the capture 
of the Suez Canal. And he resisted liberal democrats who wanted to aid 
the newly-formed nation of South Vietnam. We all know how that ended 
after his successor ignored Eisenhower's advice. My generation got to 
go to war.
    Perhaps after more than half a century we might take a page from 
the Eisenhower era and accept the premise that saying no is the best of 
a very bad set of strategic alternatives.
    These strikes can only end badly for our country. We have no 
legitimate strategic end-state in mind. A strike delivered for the 
purpose of ``sending a message'' will only inflame a region that does 
not think well of American motives after 10 years of war in the Middle 
East. Other nations might wish us well in this endeavor but none other 
than France thinks well enough of our strategy to risk the lives of 
their soldiers. We may wish to end this with a shot across the bow. But 
history shows time and again that war is the most unpredictable of all 
human endeavors. Once the dogs of war are unleashed, even for the most 
noble of motives, the consequences can only be unpredictable and likely 
end tragically for the Nation.

    Chairman McCaul. Thank you, General Scales.
    The Chairman now recognizes Mr. Joscelyn for an opening 
statement.

STATEMENT OF THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR THE 
                     DEFENSE OF DEMOCRACIES

    Mr. Joscelyn. Chairman McCaul and Ranking Member Thompson 
and other Members of the committee, thank you for having me 
here today.
    I come at this with a little bit of a different 
perspective. I help run a website called the Long War Journal, 
where we track the Syrian war on a daily basis amongst other 
conflict theaters. My testimony is going to be primarily about 
what al-Qaeda and extremist allies are doing in Syria right 
now, based on everything we can see in terms of the evidence, 
from videos to statements, to tracking the bad guys, and then 
sort of connect that to possible threats against us here in the 
homeland, to try and think about what this committee is really 
interested in, in addressing sort of emerging threats to the 
homeland and sort of being out in front of them, and I am going 
to try to do that very quickly in my statement.
    We were tracking the Syrian war right from the get-go, the 
rebellion, and we were disturbed in late 2011 and early 2012 
when Jabhat al-Nusra announced its presence on the battlefield. 
It was clear to us then that it was al-Qaeda, that it was an 
al-Qaeda affiliate, and all the evidence that has emerged since 
then makes it crystal clear that Jabhatans actually answer to 
al-Qaeda senior leadership in Pakistan. So it is al-Qaeda. It 
is not just an al-Qaeda-linked group, it is not just an al-
Qaeda sympathetic group. There is a wealth of evidence that 
this is in fact al-Qaeda.
    They are not the only al-Qaeda group inside Syria. There 
are actually two al-Qaeda affiliates that fight in Syria today. 
What they have done is they have basically joined forces with a 
number of extremist groups, who are not al-Qaeda but are 
sympathetic in one way or another to their ideology or their 
goals. So some of the largest fighting coalitions inside Syria 
right now, including the Syrian Islamic Front, parts of the 
Syrian Islamic Liberation Front, actually fight on a day-to-day 
basis with al-Qaeda's affiliates in Syria. This acts as a force 
multiplier for al-Qaeda's army basically inside Syria.
    Taking a step back for a second, what I want you to keep in 
mind is that al-Qaeda's goals inside Syria are not just about 
defeating Assad or attacking Assad's regime. In Syria, as in 
elsewhere, they want power for themselves. They are trying to 
build their own mini-state on Syrian territory, actually across 
the border even into Iraq. So much of what they are doing in 
northern Syria right now along with their extremist allies is 
they are basically consolidating power. They are actually 
setting up schools, setting up instructional facilities. They 
are indoctrinating their ideologies as much as they can 
basically within the Syrian population.
    Now, many Syrians are not actually friendly to al-Qaeda's 
ideology. However, what we have seen time and again with al-
Qaeda is they are actually getting more and more clever in 
basically finding ways to build popular support. They are in 
very much a malice sort-of grow-an-insurgency mode inside Syria 
and elsewhere where they are trying to build up their popular 
support among the local people. So much of their efforts in 
northern Syria are devoted to that.
    But they are not confined to northern Syria. They actually 
fight throughout the rest of the country. We tracked the 
fighting in Latakia in the beginning of August, which is an 
Assad family stronghold. They were leading the charge with 
other brigades behind them. The same could be said through the 
rest of the country.
    What does this all mean really for possible threats to the 
U.S. homeland? Well, in addition to getting new talent on the 
battlefield in Syria, they are bringing in Western recruits, 
they are bringing in recruits throughout Northern Africa and 
the Middle East--these are all people who could potentially be 
re-purposed for attacks, either in their home countries or in 
the West or against us. In addition to that new talent they are 
bringing in, they have also had some old talent come back to 
the battlefield. These are guys that have been freed by the 
Assad regime in the wake of the rebellion. At least according 
to credible reports, according to the Wall Street Journal and 
others, a guy named, just as one example, a guy known as Abu 
Asab al Suri has been freed by the Assad regime. Well, this is 
one of al-Qaeda's top strategic thinkers. He is a guy who 
actually laid the groundwork for how al-Qaeda should plot 
against the West, actually planning attacks on a smaller scale 
throughout the West. According to the press reporting I have 
seen, he is actually free. There are other guys like that who 
have rejoined the fight in Syria and are involved with al-
Qaeda's efforts there.
    The bottom line, from our perspective, is that while most 
of al-Qaeda's assets will be devoted to the fight inside Syria, 
over and over again we have seen this trend where a small part 
of their assets are always basically allocated to targeting the 
West. There is a good reason to believe that they will do the 
same if they are able to secure and maintain safe havens in 
Syria in the future.
    In particular, I want to point you to two troubling reports 
that I think this committee should look into further. One was 
on May 30 out of the Turkish press that said that an al-Qaeda 
in Iraq cell of about 12 members was busted and they had a 
small amount of sarin nerve gas themselves in their possession. 
The following day, on June 1, the Iraqi government said that 
they busted a cell of five al-Qaeda members who were actually 
planning to use sarin nerve gas in Iraq, in Europe, and even in 
North America. That is what the Iraqi government claimed.
    Now, I don't know the full details of those investigations 
or how they panned out, but those are the type of things that I 
would keep my eye on, because the battle in Iraq and Syria is 
joined together. They are always going to basically keep 
building up their forces to wage their insurgency, and they are 
going to devote some amount of that, some amount of their 
resources to coming after us.
    [The prepared statement of Mr. Joscelyn follows:]
                 Prepared Statement of Thomas Joscelyn
                           September 10, 2013
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for inviting me here today to discuss the 
potential threats to the United States emanating out of Syria. 
Obviously, the situation inside Syria is grim, with a despicable tyrant 
on one side and a rebellion compromised by al-Qaeda and like-minded 
extremists on the other. In between these two poles are the people who 
originally rose up against tyranny in search of a better life. As we've 
seen time and again in this long war, Muslims embroiled in violence in 
faraway lands are often the first line of defense against an ideology 
and an organization that pose a direct threat to the West. There are 
many Syrian families who deserve the free world's support today, beyond 
the prospect of limited air strikes.
    We should have no illusions about the nature of the Syrian war. 
What we are witnessing right now is a conflict that will have 
ramifications for our security in the West. The fighting in Syria and 
the terrorist campaign in Iraq are deeply linked, feeding off of one 
another in a way that increases the violence in both countries and 
potentially throughout the region. American interests outside of Syria 
have already been threatened by the war. We saw this late last year 
when al-Qaeda repurposed a cell of Jordanian citizens who had fought in 
Syria for an attack inside their home country. They reportedly had the 
U.S. Embassy in their crosshairs and were planning a complex assault 
that involved other targets as well.
    In my testimony today, I focus on the threat posed by al-Qaeda and 
allied groups inside Syria, recognizing that al-Qaeda did not start the 
Syrian rebellion. Moreover, there are many groups fighting on the side 
of the rebellion, making any clear-eyed analysis difficult. However, we 
can distill a number of observations.
    Al-Qaeda and its extremist allies have grown much stronger since 
late 2011.--Al-Qaeda does not control the entire rebellion, which is 
made up of a complex set of actors and alliances. However, al-Qaeda and 
its allies dominate a large portion of northern Syria and play a key 
role in the fighting throughout the rest of the country. These same al-
Qaeda-affiliated forces have fought alongside Free Syrian Army 
brigades. There is no clear geographic dividing line between the most 
extreme fighters and other rebels. For example, al-Qaeda's affiliates 
played a key role in the fighting in Latakia, an Assad stronghold on 
the coast, in early August. And within the past week we saw al-Qaeda-
affiliated fighters lead an attack in Malula, a Christian village not 
far from Damascus. These are just two examples chosen from many.
    Al-Qaeda has made the fight for Syria a strategic priority.--Ayman 
al Zawahiri, al-Qaeda's emir, has repeatedly called on jihadists to 
concentrate their efforts on the fight against the Assad regime. But 
al-Qaeda desires much more than Assad's defeat. Al-Qaeda wants to 
control territory and rule over others. This is consistent with al-
Qaeda's desire to establish an Islamic Emirate in the heart of the 
Levant. In his book, Knights Under the Prophet's Banner, Zawahiri 
discussed at length the importance of creating such a state. Al-Qaeda 
and associated groups have consistently pursued this goal in jihadist 
hotspots around the globe and this is especially true in Syria today.
    Two known al-Qaeda affiliates operate inside Syria: Jabhat al Nusra 
and the Islamic State of Iraq and the Sham (or Levant).--The leaders of 
both groups have sworn an oath of loyalty (bayat) to Ayman al Zawahiri 
and al-Qaeda's senior leadership. The heads of these two affiliates 
openly bickered over the chain of command in early April 2013. This 
forced Zawahiri to intervene, but the head of the ISIS initially 
rejected Zawahiri's decision to have the two remain independently-
operated franchises. It appears that some sort of compromise has been 
brokered, however, as the two al-Qaeda affiliates fight alongside one 
another against their common enemies, including Kurdish forces in the 
north.
    Al-Qaeda is not just a terrorist organization.--Al-Qaeda's leaders 
are political revolutionaries seeking to acquire power for themselves 
and their ideology in several countries. They have a plan for Syria. 
Al-Qaeda's affiliates inside Syria are not just fighting Assad's 
forces, or committing various other acts of terror. They are seeking to 
inculcate their ideology within the Syrian population. Many Syrians 
have no love for al-Qaeda's ideology, or its harsh brand of sharia law. 
But al-Qaeda knows this and has adjusted its tactics accordingly. 
Jabhat al Nusra and the ISIS are providing local governance in the 
areas they control, and are seeking to win hearts and minds by making 
various social services available to the population. This is a 
continuation of a trend that we've seen elsewhere, beginning in Yemen, 
where al-Qaeda in the Arabian Peninsula launched Ansar al Sharia as its 
political face. Ansar al Sharia does more than fight al-Qaeda's 
enemies. It has provided food, electricity, medical care, and various 
other necessities to Yemenis. Al-Qaeda's affiliates in Syria have 
copied this strategy in Syria, and are increasing their popular support 
in some areas (especially in the north and east) in this manner. This 
model is being implemented in Raqqah, Aleppo, Deir al Zor.
    Syria has become the central front in the global jihad.--Other al 
Qaeda-linked groups have joined the fight in Syria, thereby 
strengthening al-Qaeda's hand. Groups including the Pakistani Taliban 
(Tekrik-e Taliban) and the Muhajireen (Migrants) Brigade are fighting 
in Syria. The first group sent fighters and trainers from South Asia to 
Syria, while the second is comprised of Chechens and other foreign 
fighters. Indeed, several thousand foreign fighters from around the 
globe have joined the fight. Countries throughout North Africa and the 
Middle East have supplied a large number of jihadist recruits. In 
addition, a significant number of Europeans have traveled to Syria for 
jihad.
    Some of the more powerful Syrian rebel groups are closely allied 
with al-Qaeda's affiliates.--Ahrar al Sham and its coalition of like-
minded groups, the Syrian Islamic Front (SIF), fight alongside al-
Qaeda's fighters regularly. Brigades belonging to another Islamist 
coalition, the Syrian Islamic Liberation Front (SILF), have coordinated 
their operations with al-Qaeda's affiliates and Ahrar al Sham in key 
battles as well. For example, fighters from Nusra, the SIF, and the 
SILF overran the Taftanaz Airbase in January. The collective strength 
of these groups is easily in the tens of thousands of fighters Nation-
wide.
    As the 9/11 Commission recognized, there is a direct connection 
between terrorism ``over there'' and the terrorist threat to Americans 
``over here.''--Most of al-Qaeda's assets are devoted to acquiring 
power in North Africa, the Middle East, and South Asia. However, some 
portion of their assets is always devoted to terrorist plots against 
the West. Before the 9/11 attacks, most al-Qaeda recruits were trained 
to fight alongside the Taliban in Afghanistan or as part of 
insurgencies elsewhere. Only a small number of al-Qaeda members were 
selected to take part in international operations. Since 9/11, al-Qaeda 
has greatly expanded its overall footprint by directing or supporting 
various insurgencies. This increases al-Qaeda's potential recruits, 
with a small percentage of them being repurposed for operations against 
the West. We have seen this in Yemen, for example, where al-Qaeda in 
the Arabian Peninsula simultaneously increased its capacity to wage an 
insurgency against the government, while also increasing its ability to 
launch attacks on the U.S. homeland. Al-Qaeda's Iraqi affiliate, which 
spawned the Al Nusra Front, has dedicated a small part of its resources 
to attacking the West as well. The Department of Homeland Security 
announced in 2004 that al-Qaeda in Iraq (AQI) was ordered by Osama bin 
Laden to assemble a cell capable of attacking the United States. In 
2007, failed attacks in London and Glasgow were tied back to AQI. It 
should be noted that during this same time-period AQI was mainly 
focused on winning territory, not attacking the West.
    Al-Qaeda has talent inside Syria today, including top operatives 
who currently pose a threat to the West.--According to credible press 
reports, a top al-Qaeda terrorist named Mustafa Setmariam Nasar (a.k.a. 
Abu Musab al Suri) was freed from prison in the wake of the rebellion. 
Nasar has been tied to al-Qaeda's terrorist plotting inside Europe, 
including the networks that executed the 2004 Madrid train bombings and 
the 2005 attacks in London. Nasar played a prominent role in al-Qaeda's 
operations prior to being detained in 2005 and transferred to Syrian 
custody. Nasar is a widely influential jihadist thinker and a key 
advocate of small-scale terrorist attacks inside the West. He was 
reportedly freed by the Assad regime in the wake of the current 
rebellion. One of Nasar's closest colleagues, known as Abu Khalid al 
Suri, was appointed by Zawahiri to a key position within the region. We 
should wonder what happened to Mohammed Zammar, an al-Qaeda recruiter 
who helped convince the 9/11 Hamburg cell to travel to Afghanistan for 
training. Zammar was once imprisoned by the Assad regime and may very 
well be free today. In addition to this ``old school'' talent, al-Qaeda 
has been recruiting Westerners who could be used in attacks against 
their home countries or elsewhere in the West. In recent months, 
European officials have openly worried about this possibility.
    Al-Qaeda's affiliates are seeking possession of chemical and 
biological weapons in Syria.--On May 30, the Turkish press reported 
that an al Nusra Front cell had been arrested and was found to be in 
possession of about 2 kilos of sarin gas. The following day, June 1, 
Iraqi officials announced that they had broken up an al-Qaeda cell that 
was seeking to launch sarin nerve gas attacks in Iraq, Europe, and 
possibly North America. If the Iraqi government's claims are accurate, 
then we already have evidence that al-Qaeda's affiliates in Iraq and 
Syria intend to use chemical weapons in an attack the West. I encourage 
the Homeland Security Committee to investigate these claims and 
ascertain for itself the extent of al-Qaeda's efforts in this regard.

    Chairman McCaul. Thank you, Mr. Joscelyn.
    The Chairman now recognizes Dr. Biddle for an opening 
statement.

STATEMENT OF STEPHEN BIDDLE, ADJUNCT SENIOR FELLOW FOR DEFENSE 
              POLICY, COUNCIL ON FOREIGN RELATIONS

    Mr. Biddle. I would like to thank the committee for the 
chance to talk to you today on this critical National question. 
Clearly, the situation in Syria is an outrage, and it is an 
affront to the conscience of the world, as the President than 
the Secretary of State have argued. Lots of people want to do 
something about it, and I can understand why.
    The problem here is in figuring out what we can actually do 
that would actually secure our aims at tolerable cost without 
risking mission creep and a slide down a slippery slope into 
much larger commitments that would exceed our actual stakes in 
the conflict, and the difficulty in finding a military option 
that can actually do these things lies in an underlying 
ultimate asymmetry interests ourselves and Bashar al-Assad.
    Whereas our stakes are limited, his are not. For Assad, 
this is literally a war of survival, both for himself and for 
his Alawite community as a whole. This is not a war of survival 
for us. This is going to make it very hard for us to impose our 
will on Assad at a price that we are willing to pay. Sooner or 
later, we are likely to face a choice between standing down 
with important aims unmet or escalating to levels of commitment 
that outstrip our real interests in the conflict.
    Now, the details on how and why this would work out vary as 
a function of the aims, the nature, and the targets of a 
possible strike. My written testimony deals with these in some 
detail. For now, I will just touch briefly on one particular 
aspect of this, and that is the argument that we need to 
maintain our credibility following the President's commitment 
to escalate if the Syrians used chemical weapons and the 
argument that we can do this by a limited use of force that 
won't exceed the American people's tolerance for war-waging.
    Certainly, the President did put U.S. credibility on the 
line, and if we don't act now, we will incur some cost to our 
reputation as a result. But it is not clear that this is a 
problem we can solve with limited air strikes that would almost 
certainly leave Assad in power. The problem here is that 
limited strikes send inherently ambiguous signals. Perhaps Iran 
or others would read a limited strike that does not topple 
Assad or end the fighting as a sign that we are resolute, 
because we acted at all, but they could just as easily read 
limited strikes as a sign that the United States is in fact 
feckless, war-weary, and irresolute for limiting ourselves to 
pinpricks when the declared U.S. ambition of removing Assad 
remains unmet.
    Given the underlying asymmetry and interests between 
ourselves and Assad, limited strikes are unlikely to achieve 
major goals. If we insist on limiting ourselves with major 
goals unmet, that means that any signals we send will 
inherently be ambiguous and easy for others to read as the 
opposite of the message that we intend to send. The only way 
around this problem with high confidence is to over-invest, to 
commit more force than our stakes are worth to us, and to start 
down an escalatory slippery slope that could lead to far larger 
involvements than I suspect most Americans would support.
    An initial use of force that is actually limited, discrete, 
and bounded thus doesn't resolve the credibility question. It 
just postpones it a bit into a subsequent debate in which we 
will already, if that happens, be militarily engaged and thus 
where the credibility costs to us of backing down then could 
arguably be even higher than if we take our lumps on 
credibility now instead.
    As with most complicated issues, of course, there are 
important arguments on both sides of this and there aren't any 
cost-free or risk-free options on the table. Reasonable people 
as a result can disagree on the net merits of whether we should 
act or not in light of this, but on balance, for me I believe 
the costs and dangers of using force are greater than the costs 
and dangers, real as they are, of not using force, and on 
balance, therefore, I believe the case against using force is 
the stronger one here.
    [The prepared statement of Mr. Biddle follows:]
                      Statement of Stephen Biddle
                           September 10, 2013
    The administration has requested a Congressional vote to authorize 
an American use of military force against the Syrian government in the 
aftermath of an apparent Syrian chemical weapon (CW) attack against 
mostly civilian targets in the Damascus suburbs on August 21. Should 
the Congress authorize such a strike, or oppose it?
    The purpose of this testimony is to weigh the principal arguments 
for and against such an authorization.\1\ As with most complex issues, 
there are important arguments on both sides of the question, and I seek 
to present them in a balanced way. Neither the case for nor the case 
against using force is without serious costs and risks--here is no 
option here that does not have important dangers. Reasonable people can 
disagree on the net merits given this.
---------------------------------------------------------------------------
    \1\ The author would like to thank Julia MacDonald of George 
Washington University and Kevin Grossinger of the Council on Foreign 
Relations for their assistance in preparing this testimony.
---------------------------------------------------------------------------
    Yet on balance the case against using force is stronger here. Syria 
poses a major asymmetry in stakes between ourselves and President 
Assad: We have interests in Syria, both humanitarian and realpolitik, 
but they are limited; for Assad this is a literally life-and-death 
struggle for his own survival and that of his Alawite community. This 
underlying difference in stakes will make it very difficult for us to 
impose our will on Assad at a price we should be willing to pay. Sooner 
or later we are thus likely to face a choice between standing down with 
important aims unmet or escalating to levels of commitment that 
outstrip our interests in the conflict. If so, it is better to stand 
down sooner, and more cheaply, rather than later, and more expensively. 
It would have been better if we had never begun this escalatory process 
by issuing ``red line'' threats that were not in our interest to 
enforce; nevertheless it is wiser to cut our losses while these losses 
are still relatively limited rather than doubling down and, in all 
likelihood, increasing the eventual price of failure. Although there 
are important costs in backing down, this is ultimately the least-bad 
course even so.
    Nor is it clear that the United States can preserve its credibility 
with only limited airstrikes that leave Assad in power and the war 
unresolved. Preserving U.S. credibility is among the most commonly-
cited arguments for using force. Yet a limited strike sends ambiguous 
signals whose ambiguity will be highlighted if the strikes fail to 
topple Assad or end the war: Perhaps America will look resolute for 
acting at all, but Iran or others could instead see us as feckless for 
limiting ourselves to pinpricks when the declared U.S. ambition of 
removing Assad remains unachieved. Given the asymmetry in stakes here, 
ambitious aims like toppling Assad are likely to require far more than 
limited airstrikes; limits we impose on ourselves are thus likely to 
leave unmet our stated ambition of removing Assad and this will 
inevitably allow others to read this self-limitation as a lack of 
resolve to finish the job. Limited strikes now thus do not settle the 
credibility question: We will always be sending the Iranians ambiguous 
signals unless we commit more force that the stakes here are worth to 
us.
    Below I assess these arguments in terms of the various aims some 
have cited as grounds for using force. Assessing these arguments is 
complicated by the still-undefined nature of the proposed attack, its 
targets, and its objectives, and the plasticity of the proposed 
authorizing resolution, whose exact wording is still under negotiation. 
To evaluate the issue properly it is thus necessary to consider a range 
of possible objectives, their importance, and the prospects of 
achieving them with attacks of different kinds. I therefore treat in 
sequence each of the five main goals an attack might be designed to 
achieve: Deterring further CW use and upholding norms against the 
employment of such weapons; preserving U.S. credibility; enabling a 
negotiated settlement to the war; toppling Assad and his government; 
and ending the humanitarian crisis by saving civilian lives. I conclude 
with summary observations and recommendations.\2\
---------------------------------------------------------------------------
    \2\ I assume below that Syrian government forces did indeed use 
chemical weapons on August 21, and before then on a more limited scale. 
There has been debate over the adequacy of the administration's 
evidence on this point, but it is not my purpose to adjudicate this 
debate or weigh the technical details pro or con, especially in an 
unclassified analysis. Suffice to say that the administration had given 
few indications before August 21 that they were spoiling for a chance 
to attack Syria in a way that would give them a motive to manufacture 
evidence of Syrian CW use--on the contrary, their preference seemed 
clearly to avoid military action, and their perceived self-interest 
presumably lay in holding any adduced evidence to a very high standard 
of proof. I can only assume, therefore, that they are convinced, and I 
will proceed on the assumption that they are right.
---------------------------------------------------------------------------
       deterring syrian cw use and enforcing international norms
    Among the most salient purposes now cited by strike supporters is 
to deter further CW use by Syria and to enforce an international norm 
against the use of such weapons. A relatively limited U.S. attack, it 
is often argued, might be enough to tip the balance of Syrian 
government cost and benefit against the use of CW, which would have a 
number of advantages if so.
    Many believe, for example, that chemical weapons are uniquely 
abhorrent and should be prohibited on humanitarian grounds regardless 
of the actual scale of killing they produce. There has been a long-
standing (if imperfectly observed) norm against chemical warfare; many 
who would like international politics in general to be more rule-bound 
and less anarchic thus favor upholding this norm as a way of promoting 
norm compliance more broadly.
    There are also realpolitik reasons to limit CW use. In particular, 
chemical weapons are often seen as a means for weaker powers to end-run 
American advantages in conventional warfare, hence the United States 
has a military incentive to discourage their use in order to reinforce 
U.S. conventional superiority. Some worry that chemical weapons could 
be obtained or synthesized by terrorists and used against American or 
allied civilians. And CW poses environmental hazards that vary with the 
prevailing winds and the scale of release, and could in principle 
threaten Syria's neighbors, including Israel. Other things being equal, 
it would clearly be in America's interest to see an end to the use of 
chemical weapons, whether in Syria or elsewhere.
    Other things are not equal, however. In particular, limited strikes 
could well fail to deter Assad. The stakes for Assad in Syria's civil 
war are literally existential. Not only could he and his family be 
killed or imprisoned if his government falls, but the war now involves 
a powerful strand of identity conflict pitting Assad's Alawite minority 
sect, which has governed Syria for generations, against the majority 
Sunnis, who dominate the rebel movement. In an identity war of this 
kind, the entire losing community risks oppression at best and genocide 
at worst at the hands of the victorious group. Assad probably views the 
conflict as a struggle for the survival of his entire sectarian 
community. Successful deterrence requires a credible threat to impose 
pain that exceeds the recipient's stake in the conflict. This will be 
very difficult to do with Assad.
    Of course, the issue here is not necessarily victory or defeat in 
the war as a whole, but merely Syrian use of one weapon type--CW--in 
the conduct of that war. Can the United States credibly threaten to 
impose enough pain on Assad to persuade him to withhold this one weapon 
while continuing the war with conventional means alone?
    Perhaps. After all, withholding CW use is not tantamount to suicide 
or surrender for Assad. He has a large, well-equipped conventional 
military that might well succeed even without CW. Assuming that Syrian 
CW use was deliberate (and not accidental or unauthorized), Assad has 
apparently concluded that it helps him militarily, but CW probably 
isn't decisive for the outcome of the war and perhaps Assad will 
conclude that he's better off without it and without the danger of 
American airstrikes that further CW use could bring.
    But we cannot know for sure. And there are many good reasons to be 
cautious about our ability to predict Assad's reaction to American 
threats or small-scale American airstrikes.
    Our ability to understand Assad's decision calculus is very 
limited. This is a man from a very different cultural background and 
upbringing than ours, in the midst of a desperate war for survival, 
whose knowledge of the United States and our likely future actions is 
limited and subject to a wide array of cognitive biases and 
organizational pathologies. Many authoritarian governments find 
accurate reporting of unwelcome news very difficult: Bearers of bad 
tidings can pay with their lives or their freedom for speaking truth to 
power in dictatorships. Such governments may thus tend to discount 
threats from outside powers designed to dissuade them from their 
preferred policies--who will insist on telling Assad that he must bow 
to American pressure when the price of bearing such bad news could be 
the firing squad?\3\ Psychologists tell us that leaders' prior 
preferences and expectations strongly influence their perception of new 
information: A dictator who has committed himself to a war of survival 
using any means necessary, who desperately wants to believe that his 
strategy can work, and who may have calculated that the outside world 
would stand aside, may well tend to discount American threats as bluffs 
because he so badly wants them to be and because human cognition 
encourages all people to try and fit new information into preexisting 
expectations. It can be difficult for threats to overcome motivated 
cognitive biases that encourage people to believe that their preferred 
strategies will work.\4\ Deterrence turns on the specific decision 
calculus of the opponent--it is the enemy's perceptions, not ours, that 
determines whether they desist under threat or not. To be confident 
that a deterrent threat will succeed we must be confident that the 
enemy will read the threat as we wish it to be read, and will evaluate 
it the way we hope it will be evaluated. Given all the perceptual 
filters and sources of potential bias at work in our relationship with 
Bashar al-Assad, it is impossible to guarantee that our deterrent 
threat will succeed.\5\
---------------------------------------------------------------------------
    \3\ On intelligence assessment and reporting in autocracies, see, 
e.g., Kenneth Pollack, The influence of Arab culture on Arab military 
effectiveness (PhD dissertation, MIT, 1996), ch. 3; Kevin Woods, James 
Lacey, and Williamson Murray, ``Saddam's Delusions: The View from 
Inside,'' Foreign Affairs, May-June 2006; Barry Blechman and Tamara 
Coffman Wittes, ``Defining Moment: the Threat and Use of Force in 
American Foreign Policy,'' Political Science Quarterly, Vol. 114 
(Spring 1999), pp. 1-30; cf. Dan Reiter and Allan Stam, ``Democracy and 
Battlefield Effectiveness,'' Journal of Conflict Resolution, Vol. 42 
(June 1998), pp. 259-277.
    \4\ See, e.g., Robert Jervis, Perception and Misperception in 
International Politics (Princeton: Princeton University Press, 1976), 
ch. 4. For an overview of the cognitive and other potential barriers to 
successful deterrence across cultural divides, see Robert Jervis, 
Richard Ned Lebow, and Janice Gross Stein, eds., Psychology and 
Deterrence (Baltimore: Johns Hopkins University Press, 1985).
    \5\ One could also argue that this is not actually a case of 
deterrence but an instance of what Thomas Schelling calls compellence--
deterrence uses threats to prevent enemy action, compellence uses 
threats to cause the enemy to act. Inasmuch as Assad is evidently 
already using CW (albeit on a still-limited scale), one could argue 
that U.S. demands amount to a compellent strategy to cause Assad to act 
by halting something he is already doing. This distinction matters in 
that compellence is often considered harder and less likely to succeed 
than deterrence. On the distinction and its implications, see Thomas 
Schelling, Arms and Influence (New Haven: Yale University Press, 2008 
ed. of 1966 orig.).
---------------------------------------------------------------------------
    The more limited the strike, moreover, the greater the odds that 
Assad discounts our threat and continues to use CW. One way to read a 
small U.S. use of force is that it signals American willingness to 
escalate if Assad defies us. But it could also be read just the 
opposite way: As a signal of U.S. unwillingness to strike massively (if 
we were really willing to use massive force, why haven't we?), and a 
sign that the United States is reluctant to commit. The very emphasis 
the administration now places on the limited nature of our prospective 
attack is a very plausible indication of Presidential ambivalence and 
unease with the use of force in Syria; Assad would not have to be crazy 
to read this as a sign that the United States lacks the will to 
intervene decisively. Limited attacks send ambiguous signals that can 
be read as commitment or reluctance; the more limited the attack, the 
more ambiguous the signal and the lower the odds that an audience 
subject to cognitive, cultural, and institutional blinders will read it 
the way we want them to.
    Assad also needs to worry about others' perceptions of his resolve. 
To survive, he must convince his officers and his soldiers that he is 
resolute and capable of winning the war--if he looks weak or 
irresolute, lieutenants who fear getting stuck on the wrong side of a 
losing war might jump ship and defect or flee early while they still 
can. He might well regard a limited U.S. airstrike as a test of his own 
ability to project an image of toughness and commitment to his own 
officers and thus refuse to back down. He is also presumably wary of 
signaling weakness to the rebel alliance in a way that could embolden 
them or encourage them to hold out for maximalist ambitions of ousting 
or trying him. Just as we worry about the effects of backing down on 
perceptions of our toughness and credibility (see below), so Assad has 
the same worries or even more so--and this could lead him to defy our 
wishes and continue CW use simply to demonstrate his own toughness and 
resolve.
    If our strike fails to deter Assad, and we detect further Syrian CW 
use, what then? Do we double-down and escalate to heavier attacks to 
prove that we meant it? If not, would this not be at least as damaging 
to our credibility and reputation for resolve than if we decline to 
attack in the first place? After all, the declared purpose of the 
attack would presumably have been to deter CW use--if the purpose has 
not been met, would standing down not send the message that anyone who 
simply rides out initial, limited U.S. airstrikes is off the hook, 
devaluing the currency of small-scale attacks and making it less likely 
than before that we can signal resolve through the limited use of force 
in some future crisis? If we are not actually willing to follow through 
and carry out the implicit threat of escalation inherent in a limited 
strike then the limited strike amounts to a bluff; if we are caught 
bluffing we reduce our ability to succeed without follow-on escalation 
the next time, even if the next time we really are willing to escalate.
    How important, then, is it that we deter Syrian CW use, and how 
much force should we be willing to apply to this end? In fact the 
stakes here for the United States are real, but quite limited.
    Yes, we do have realpolitik interests in deterring prospective 
enemies from CW use, but our forces are trained and equipped to operate 
in chemical environments, and it is unlikely that CW use alone could 
defeat the American military or even impose intolerable military costs 
or casualties. We should prefer that wars stay conventional, but we 
should not be willing to pay a heavy up-front price in Syria to ensure 
this. CW has proven to be a very difficult weapon for terrorists to use 
effectively; for CW to be as lethal as readily-available non-CW 
alternatives such as truck-borne fertilizer bombs would require access 
to sophisticated delivery means capable of disseminating CW agents 
efficiently over large areas. While it is not impossible for future 
terrorists to master this, they have not to date, and it is not clear 
that U.S. airstrikes against Syria would meaningfully affect the 
likelihood of this happening in the future. Syrian CW could in 
principle affect Israel or other neighbors, but CW releases as large 
and uncontrolled as this would also threaten Alawite civilians on a 
scale that is at least as likely to deter Assad as the threat of U.S. 
airstrikes.
    The normative stakes are similarly real, but limited. The United 
States does have an interest in discouraging the use of ``taboo'' 
weapons such as chemical, biological, or nuclear arms, and there is 
some reason to believe that norms help reduce the scale of their 
employment. Yet these norms have not prevented CW from being used when 
states felt they needed them most, and other weapon types subject to 
public opprobrium have similarly been used when states felt they had 
to: Unrestricted submarine warfare and bombing of civilian homes were 
both condemned before World Wars I and II, but were widely used when 
militaries felt they needed them to avoid defeat.\6\ Norms can help 
reduce such use at the margin, and this is valuable, but it is not 
infinitely valuable and the scale of military action justified now to 
support the CW taboo is thus correspondingly limited.\7\
---------------------------------------------------------------------------
    \6\ On the role of norms in shaping international political 
behavior in general, and weapon use choices in particular, see Jeffrey 
Legro, Cooperation Under Fire (Ithaca: Cornell University Press, 1995); 
idem, ``Which Norms Matter? Revisiting the `Failure' of 
Internationalism,'' International Organization, Vol. 51, No. 1 (1997): 
31-63; Richard Price, ``Reversing the Gun Sights: Transnational Civil 
Society Targets Land Mines,'' International Organization, Vol. 52, No. 
3 (1998): 613-644; Nina Tannenwald, The Nuclear Taboo: The United 
States and the Non-Use of Nuclear Weapons Since 1945 (Cambridge: 
Cambridge University Press, 2007); R. Charli Carpenter, ``Vetting the 
Advocacy Agenda: Network Centrality and the Paradox of Weapons Norms,'' 
International Organization, Vol. 65, No. 1 (2011): 69-102. On chemical 
weapons specifically see Richard Price, The Chemical Weapons Taboo 
(Ithaca: Cornell University Press, 2007). On conditions under which 
norms during warfare break down, see Alexander Downes, Targeting 
Civilians in War (Ithaca: Cornell University Press, 2008). Finally, for 
a recent discussion of the relative importance of military utility over 
normative concerns in U.S. public opinion see Daryl G. Press, Scott D. 
Sagan, Banjamin A. Valentino, ``Atomic Aversion: Experimental Evidence 
on Taboos, Traditions, and the Non-Use of Nuclear Weapons,'' American 
Political Science Review, Vol. 107, No. 1 (2013): 188-206.
    \7\ Nor is there a strong logical basis for treating CW as uniquely 
abhorrent. Even in World War I, where CW was more widely used than ever 
since, the scale of suffering inflicted by gas weapons was vastly 
smaller than that caused by conventional weapons. In Syria today, the 
1,429 civilian deaths attributed to CW in the August 21 attack is 
dwarfed by the perhaps 100,000 people killed to date by conventional 
munitions. It is obviously horrible to die from convulsions and 
asphyxiation after ingesting Sarin gas, but it is also obviously 
horrible to die from being disemboweled by conventional artillery or 
having ones' limbs blown off by conventional roadside bombs. The unique 
cultural history of chemical weapons and their similarity to 
insecticide inspires some to treat them as a thing apart from high 
explosives or other means of killing and wounding humans, but it is far 
from clear that any rigorous ethical argument would make a clear 
distinction.
---------------------------------------------------------------------------
    Nor is the issue of norm compliance as clear-cut as is sometimes 
suggested. In fact there are conflicting norms affected by any U.S. 
strike: an attack might uphold the norm of CW non-use, but it would 
surely undermine the norm against interstate uses of force without U.N. 
Security Council authorization except in cases of self-defense. Many, 
especially in the Arab world, would surely see any U.S. strike without 
UNSC approval as a self-interested exercise of power rather than a 
selfless enforcement of humanitarian norms.\8\ It is not clear that a 
U.S. attack would on balance conduce to greater norm observance 
afterward rather than lesser.
---------------------------------------------------------------------------
    \8\ See, e.g., Shibley Telhami, ``Questioning Credibility,'' 
Foreign Policy, September 6, 2013. On conflicting norms in Syria, see 
Clive Crook, ``The Moral Case for a Syria Strike,'' http://
www.bloomberg.com/news/2013-09-04/the-moral-case-for-a-syria-
strike.html. It is also debatable how strong or how normatively 
compelling the anti-CW norm is. Jeffrey Legro, for example, has argued 
that norms on weapon non-use are most influential when the norm 
coincides with a military preference to avoid such weapons and an 
absence of perceived military need on the part of prospective users: 
Legro, Cooperation Under Fire. CW has often met these conditions in the 
past, but to the extent that Assad believes his regime is threatened by 
rebels without easy access to CW of their own, he may thus see a real 
military need to employ such weapons--as others have, too: Notably 
Saddam Hussein in the Iran-Iraq War: see Victor Utgoff, The Challenge 
of Chemical Weapons (London and New York: Macmillan, 1990), pp.69-87; 
Anthony Cordesman and Abraham Wagner, The Lessons of Modern War, Volume 
II: The Iran-Iraq War (Boulder: Westview, 1990).
---------------------------------------------------------------------------
    None of this is to suggest that a deterrent strike cannot work, or 
that Assad is guaranteed to ignore our threats, or that an initial 
attack means we are doomed to escalate. But none of these perils can be 
ruled out. And the circumstances here--especially the pressure Assad is 
under to succeed and the barriers to our ability to project his 
response with confidence--make the dangers particularly acute. 
Reasonable people could argue that we are best served by rolling the 
dice and taking our chances with a limited strike for deterrent 
purposes, and maybe that will succeed if attempted. But it would be 
irresponsible policy making to strike on the assumption that it will 
work, and without a plan for what we will do in the event that a small-
scale attack fails, because it may well. And the limited nature of our 
interests in deterring CW use means that it would not take much 
escalation beyond a limited initial strike for our efforts to exceed 
our stake.
                      preserving u.s. credibility
    When the President announced last year that Syrian CW use would 
cross a ``red line'' in a way that would change his calculus, he was 
clearly threatening to escalate U.S. involvement if Assad used CW. 
Nations routinely rely on threats to deter rivals from aggressive 
action; for deterrence to succeed without war, such threats must be 
believed by their target audience. Much is thus at stake in the 
credibility of American threats. Among the areas where this matters 
most is the case of Iran: The President is hoping that a vague threat 
of military action will deter the Iranians from crossing the nuclear 
threshold. Many now argue that if the President issues a clear threat 
to Assad and then backs down when Assad calls his bluff, this will 
signal weakness and irresolution to Iran and encourage them to proceed 
with their nuclear program and ignore American threats to destroy it 
first. This problem is compounded by the administration's apparent 
foot-dragging on earlier evidence of smaller-scale Syrian CW use: For 
months, the administration responded to allies' claims of such use by 
delaying for further study, then finally authorizing only a minimal 
response by promising small arms and ammunition for the Syrian rebels 
and delaying delivery of even that.
    The administration's understandable ambivalence over intervention 
in Syria might imply that the best course would have been to walk back 
the President's ``red line'' comment (which was apparently not included 
in his prepared remarks) in subsequent press guidance. Instead, the 
administration reiterated its commitment to the CW ``red line,'' and in 
public comments by the Secretary of State and others after the August 
21 attack it radically reinforced its commitment to punish Assad. 
Whatever the reputational costs of ignoring the ``red line'' before 
August 21, they are now much higher as a result of this very public 
recommitment.
    Given this, wouldn't it undermine the credibility of all U.S. 
assurances--both promises to allies and threats to enemies--for the 
United States to now withhold the escalation it has so clearly 
threatened?
    Yes, it will. It would have been better if the ``red line'' 
commitment had never been made, and if the President had not tied U.S. 
credibility to this threat. In doing so, he created a U.S. National 
security interest in preserving our credibility that did not exist 
before-hand, and to back down now, in the aftermath of this commitment, 
is to incur a cost in diminished credibility going forward. That will 
indeed reduce our deterrent leverage for hard cases like Iran, and our 
ability to reassure allies.
    The question, however, is how much deterrent power we would lose by 
backing down here, how much cost and risk we would incur by acting, and 
just as important, how much improvement in deterrent credibility we 
would gain by limited actions commensurate with our limited stakes in 
Syria. In fact the reputational effect of backing down now is easy to 
exaggerate, the danger of further escalation if we act now is 
substantial, and the benefit of limited action without such escalation 
is itself limited.
    Political scientists have studied reputation and credibility, and 
the results of a generation of scholarship suggest that statesmen often 
overestimate the degree to which reputation shapes others' behavior in 
future crises. This is partly due to cognitive bias: Prior beliefs 
shape perception of incoming information, and rivals who want to act 
aggressively without U.S. interference often harbor fond beliefs that 
the United States is a paper tiger who will stand aside rather than 
challenging them. This prior belief often leads them to discount 
evidence of U.S. resolve and fixate instead on instances where the 
United States backed down. Where the prior belief is strongly held it 
can be very difficult to overcome by piling up cases of resolve--even a 
small sample of irresolute behavior can overwhelm all this, and there 
has already been more than enough irresolution in U.S. behavior (over 
decades) to provide all the evidence needed for motivated bias to 
persuade rivals like Iran that the United States is irresolute.\9\ But 
statesmen also exaggerate the importance of reputation relative to 
circumstances in shaping rivals' behavior. Most states pay less 
attention to others' history in other times and places than they do to 
others' real capabilities and apparent stakes in the immediate matter 
at hand. States may believe others are paper tigers, but if others' 
capabilities and interests in the current crisis make them a threat 
then statesmen usually pay attention and act accordingly.\10\ Cognitive 
bias makes it hard for the United States to establish a reputation for 
toughness with enemies who believe we are irresolute; the importance of 
circumstances over reputation anyway makes it less valuable to act 
merely to build reputation--especially when acting now might weaken us 
militarily or reduce the force we can actually bring to bear on other 
crises later.
---------------------------------------------------------------------------
    \9\ Jervis, Perception and Misperception, ch. 4. The literature on 
learning in international relations similarly suggests that beliefs of 
third parties are unlikely to change because vicarious learning rarely 
occurs. See Jack Levy, ``Learning and Foreign Policy: Sweeping a 
Conceptual Minefield,'' International Organization 48, no. 2 (1994): 
279-312. Yuen Foong Khong, for example, finds that U.S. leaders paid 
little attention to the French experience from Vietnam despite the fact 
its potential to provide valuable information about the resources, 
tactics, and resolve of the North Vietnamese. See Yuen Khong Fong, 
Analogies at War: Korea, Munich, Dien Bien Phu, and the Vietnam 
Decisions of 1965 (Princeton: Princeton University Press, 1992).
    \10\ Daryl Press, Calculating Credibility: How Leaders Assess 
Military Threats (Ithaca NY: Cornell University Press, 2005); Aaron 
Friedberg, The Weary Titan: Great Britain and the Experience of 
Relative Decline 1895-1905 (Princeton: Princeton University Press, 
1988). See also Jonathan Mercer, Reputation in International Politics 
(Ithaca: Cornell University Press, 2010), which argues that reputations 
for resolve do not require repeated uses of force to sustain. For 
further studies that cast doubt on the claim that reputation matters 
see Paul K. Huth and Bruce R. Russett, ``What Makes Deterrence Work? 
Cases From 1900 to 1980'' World Politics Vol. 36, No. 4 (July 1984): 
496-526; and Ted Hopf, Peripheral Visions: Deterrence Theory and 
American Foreign Policy in the Third World, 1965-1990 (Ann Arbor: 
University of Michigan Press, 1995). Where reputation is claimed to 
matter to foreign policy outcomes, the conditions under which it does 
so are restrictive and highly context dependent: see, e.g., John D. 
Orme, Deterrence, Reputation and Cold-War Cycles (London: MacMillan, 
1992); Jonathan Shimshoni, Israel and Conventional Deterrence: Border 
Warfare from 1953-1970 (Ithaca: Cornell University Press, 1988); and 
Elli Lieberman, ``What Makes Deterrence Work: Lessons from the 
Egyptian-Israeli Enduring Rivalry,'' Security Studies, Vol. 4 (1995): 
833-92. Glenn Snyder, in Deterrence and Defense: Toward a Theory of 
National Security (Princeton: Princeton University Press, 1961), argues 
that reputations are only likely to form when the behavior of a 
defender runs counter to the expectations of the potential attacker. 
Finally, a recent study of reputation and military effectiveness tends 
to support the importance of capability and stakes in shaping third-
party judgments about an opponents' war-fighting ability, but again 
these reputational effects are circumscribed to cases where the 
fighting environment is similar. See Kathryn Cochran, ``Strong Horse or 
Paper Tiger? Assessing the Reputational Effects of War Fighting'' Ph.D. 
Dissertation Duke University 2011.
---------------------------------------------------------------------------
    And if we do attack Syria now, the risk of escalation is serious. 
Limited U.S. airstrikes will almost certainly not end the war. They may 
or may not deter future Syrian CW use (see above), but they will surely 
not end the war, and probably won't change its trajectory much if our 
strikes are indeed limited. Some believe that we can mount a limited 
strike, declare the commitment embodied in the President's ``red line'' 
met, and halt with no further obligations. Perhaps. But if so this will 
occur in spite of clear failure to stop the violence, topple Assad, or 
prevent him from killing Syrian civilians with conventional weapons. A 
brutal war will continue, with further atrocities from conventional 
weapons if not CW, and with on-going calls from a harried rebel 
alliance and especially its moderate wing that we do something to help 
prevent their slaughter. It is obviously difficult to ignore such calls 
now, when the U.S. military has not been committed to the conflict. How 
much harder will it be once we have crossed the threshold and 
intervened ourselves? We would then face the additional charge that our 
unwillingness to escalate is allowing future rivals to believe that 
they can survive U.S. airstrikes, and that U.S. airpower's reputation 
for efficacy is at risk. Unless we act with enough violence to defeat 
Assad or otherwise end the war, there is no natural threshold beyond 
which we escape from the charge that our credibility is threatened by 
our failure to escalate. Unless we are prepared to do whatever it 
takes, we will thus eventually be forced to stand down with important 
aims unmet and risk allowing Iran or others to label us a paper tiger 
as a result. This will be just as true after an initial airstrike as it 
is now--striking now does not absolve us from the charge of 
irresolution and fecklessness, it just continues the debate into the 
next phase of the war after greater levels of prior commitment. And if 
it makes sense to ignore such charges then and limit our commitment to 
a single wave of limited airstrikes, why would it not make just as much 
sense to ignore such charges now and limit our commitment to arming and 
training the rebels without U.S. military action? If we care only about 
a legalistic satisfaction of the Presidential ``red line'' commitment 
without actually toppling Assad or ending the war, then why can't we 
satisfy this requirement with a truly minimum response and simply up 
the ante on aid to the rebels? In fact the more we invest and the more 
we commit the prestige and reputation of the U.S. military to the war, 
the greater the escalatory pressure we will face if that commitment is 
limited and falls short.
    If we are not prepared to do whatever it takes, then we will thus 
ultimately suffer some degree of price to our reputation and 
credibility; this is not a cost that can be averted with a limited 
program of airstrikes unless Assad proves less resolute than his own 
stakes would imply. In fact the price may be lower now than if we climb 
higher on the escalatory ladder before we accept our limits and back 
down.
              enabling a negotiated settlement to the war
    The administration clearly hopes to resolve the conflict with a 
negotiated settlement in which the Assad regime and the rebels agree to 
lay down their arms in exchange for a power-sharing deal of some kind. 
The prospects for such a deal are currently remote, however. Neither 
side is willing to accept the compromises needed, and neither side 
trusts the other to comply with any such terms in the aftermath. Some 
argue that U.S. airstrikes could play a catalytic role in enabling such 
a deal by changing the regime's interest calculus: By tilting the 
playing field in favor of the rebels, they argue, such strikes could 
give the regime an incentive they now lack to make compromises and 
accept a negotiated peace. Some cite the 1995 Dayton Accords that ended 
the war in Bosnia, arguing that a program of NATO airstrikes brought 
the Serbs to the table and enabled settlement; if so, perhaps U.S. 
airstrikes in Syria could produce a comparable result in 2013.
    There are many challenges here, however. The Dayton analogy, for 
example, is a weak one: The negotiations were conducted following not 
just a program of NATO airstrikes but a massive Croatian-Bosniak ground 
offensive in Operation Storm that had swept Serbian forces from the 
Krajina in a 4-day blitzkrieg and threatened the Serbs with military 
annihilation if they refused a deal.\11\ No comparable rebel blitzkrieg 
is in store for Syria. Nor can we readily predict the effect of limited 
airstrikes on either the regime's or the rebels' willingness to parley: 
The same opacity that complicates effective deterrence makes it very 
hard to anticipate either sides' decision calculus on talks, and it is 
not uncommon for outside intervention to harden its allies' bargaining 
position as they see their prospects improving rather than increasing 
their willingness to compromise. There is no way to ensure that 
airstrikes would not leave us further from a deal rather than closer, 
and the complexity of the situation should encourage modesty in any 
claims that we can fine-tune either sides' incentive structure with a 
bombing campaign.
---------------------------------------------------------------------------
    \11\ On Operation Storm, see Balkan Battlegrounds: A Military 
History of the Yugoslav Conflict, 1990-1995, two vols., (Washington, 
DC: Central Intelligence Agency, 2003).
---------------------------------------------------------------------------
    Arguably a bigger challenge, however, is the post-settlement 
requirements for success such a strategy would create. Civil wars are 
difficult to settle, but many ultimately end in negotiated deals of 
some kind. It is far from clear that conditions in Syria today are ripe 
for such a deal, but the war will probably end that way some day. Such 
settlements, however, frequently break down in renewed violence--after 
all, the conflict itself often destroys any vestiges of mutual trust 
and creates dense webs of internecine fear, anger, and motives for 
revenge.\12\ Where such settlements do not simply revert to open 
warfare in the aftermath, it is often because the presence of outside 
peacekeepers, in substantial numbers, stabilizes the situation and 
damps post-war escalatory spirals long enough for the effects of time 
to gradually diminish tensions.\13\ Perhaps the most useful analogy to 
be drawn from the Dayton Process in this respect is thus its 
peacekeeping dimension: In the immediate aftermath of the war, NATO 
deployed some 60,000 heavily-armed soldiers as peacekeepers, and they 
remained in significant numbers for years thereafter--in fact, some 600 
of them remain today.\14\ Even if airstrikes could catalyze 
negotiations, even if those negotiations succeeded, and even if the 
result ended the war, there would still be a need for a major and 
highly risky outside commitment to send ground forces to stabilize the 
result. It is far from clear where such a large outside peacekeeping 
force would come from--set aside the international financial investment 
needed to complete the process. Without this, even a nominally 
successful negotiation would be wasted. For U.S. airstrikes to be a 
rational component of a larger strategy for ending the war via 
negotiation, some strategy for stabilizing the result is thus needed, 
and this would require large ground force commitments that are hard to 
see forthcoming any time soon.
---------------------------------------------------------------------------
    \12\ On settlement breakdowns and the resurgence of violence see 
Robert Harrison Wagner, ``The Causes of Peace,'' in Roy Licklider, ed., 
Stopping the Killing: How Civil Wars End (New York: New York University 
Press, 1993), pp. 235-268; Roy Licklider, ``The Consequences of 
Negotiated Settlements in Civil Wars, 1945-1993,'' American Political 
Science Review, Vol. 89, No. 3 (1995): pp.681-690; Monica Duffy Toft, 
``Ending Civil Wars: A Case for Rebel Victory?'' International 
Security, Vol. 34, No. 4 (Spring 2010), pp. 7-36; Monica Duffy Toft, 
Securing the Peace: The Durability of Civil Wars (Princeton: Princeton 
University Press, 2009). On general barriers to negotiating civil war 
settlements see James Fearon, ``Why Do Some Civil Wars Last So Much 
Longer Than Others?'' Journal of Peace Research, Vol. 41, No. 3 (2004): 
275-301; Barbara F. Walter, ``The Critical Barrier to Civil War 
Settlement,'' International Organization, Vol. 51, No. 3 (Summer 1997): 
335-364; Barbara F. Walter, Committing to Peace: The Successful 
Settlement of Civil Wars (Princeton: Princeton University Press, 2002); 
Barbara F. Walter, ``Bargaining Failures and Civil War,'' Annual Review 
of Political Science, Vol. 12 (2009): 243-61; Michaela Mattes and Burca 
Savun, ``Information, Agreement Design, and the Durability of Civil War 
Settlements,'' American Journal of Political Science, Vol. 54, No. 2 
(2010): 511-524.
    \13\ On the importance of third-party guarantees see Walter, ``The 
Critical Barrier to Civil War Settlement,'' pp. 335-364; Caroline 
Hartzell, Matthew Hoddie and Donald Rothchild, ``Stabilizing the Peace 
After Civil War'' International Organization Vol. 55, No. 1 (2001): 
183-208; Walter, Committing to Peace; Mattes and Savun, ``Information, 
Agreement Design, and the Durability of Civil War Settlements,'' pp. 
511-524. On the merits of peacekeeping and peace building more 
specifically see Michael Doyle and Nicholas Sambanis, ``International 
Peacebuilding: A Theoretical and Quantitative Analysis,'' American 
Political Science Review, Vol. 94, No. 4 (December 2000); Virginia Page 
Fortna, ``Does Peacekeeping Keep Peace: International Intervention and 
the Duration of Peace After Civil War,'' International Studies 
Quarterly Vol. 48 (2004): 269-292; Michael Doyle and Nicholas Sambanis, 
Making War and Building Peace (Princeton: Princeton University Press, 
2006); Virginia Page Fortna, Does Peacekeeping Work? Shaping 
Belligerents' Choices after Civil War (Princeton: Princeton University 
Press, 2008). On the importance of peace settlements including power-
sharing arrangements see Caroline Hartzell and Matthew Hoddie, 
``Institutionalizing Peace: Power Sharing and Post-Civil War Conflict 
Management,'' American Journal of Political Science, Vol. 47, No. 2 
(2003): 318-332; Caroline Hartzell and Matthew Hoddie, Crafting Peace: 
Power-Sharing Institutions and the Negotiated Settlement of Civil Wars 
(University Park: Pennsylvania University Press, 2007); Charles T. 
Call, Why Peace Fails: The Causes and Prevention of Civil War 
Recurrence (Washington, DC: Georgetown University Press, 2012).
    \14\ http://www.fas.org/man/crs/93-056.htm; http://
www.euforbih.org/index.php?option=- 
com_content&view=article&id=15&Itemid=134.
---------------------------------------------------------------------------
                             toppling assad
    Bashar al-Assad is no friend of the United States, and his 
government is responsible for slaughtering tens of thousands of its own 
people. Many would like to see his regime fall, and many see U.S. 
airstrikes as a potential means to this end. It is very unlikely that a 
limited, short-duration air campaign could bring this about, however. A 
regime-changing campaign would have to be larger in scale, longer in 
duration, and more expensive to mount, but it is plausible that if we 
became effectively a co-belligerent with the rebel alliance we could 
eventually catalyze Assad's defeat, as we and others did to Muammar 
Qaddafi in Libya. Here, too, however, there are downstream problems 
that reduce the appeal of U.S. intervention.
    Many have discussed the problem of al-Qaeda affiliated jihadists 
among the rebel alliance, and the danger that Assad's defeat could 
simply replace him with an even worse alternative in a new government 
sympathetic to the Jabhat al-Nusra or other jihadi elements that now 
fight alongside them to topple Assad. This is a very serious danger, 
and one that cannot be ameliorated from the air alone. The political 
engineering needed to create a stable, democratic, pro-Western postwar 
government in a country as deeply divided as Syria would be 
exceptionally demanding and would require a substantial political, 
economic, and probably military presence on the ground to succeed. This 
is not an agenda for a low-cost, limited engagement in Syria--and it is 
unclear whether even an ambitious, lavishly-funded post-war state-
building program could succeed given the violent, highly-mobilized 
character of the war today and the atomized, disunified quality of the 
opposition.
    Nor is it clear that toppling Assad would even end the war. On the 
contrary, Assad's fall could easily just change the sides and the cast 
of characters without even reducing the scale of violence. As we saw in 
Iraq, unseating a dictator does not necessarily produce peace, much 
less democracy. Assad's Alawite community feels deeply threatened by 
Syria's Sunnis and vice versa, and it is entirely possible that they 
would respond to an Assad collapse with an insurgency along Iraqi lines 
as a means of protecting themselves from Sunni overlordship. If so, the 
sides would change: Alawites would go from the government side to the 
insurgency; Syria's Sunnis would transform from insurgents to the 
government; but the war would continue. And if the rebel alliance 
failed to forge a unified governing slate, an equally likely outcome 
would be an atomized internecine civil war along the lines of 1990s 
Afghanistan, in which multiple armed factions--some Sunni, some 
Alawite, some Kurdish, and others none of the above--fight it out among 
themselves for power and influence. Even if American military force 
drove Assad from power, this is not tantamount to peace, democracy, or 
stability--in fact, it is far from clear that Syria after Assad would 
pose much of an improvement over Syria with Assad absent a massive 
outside investment in state-building and high-risk stabilization.
                     ending the humanitarian crisis
    Among the more important justifications for action the President 
has cited is the need to respond to the outrage of Assad's slaughter of 
his own people. The Syrian civil war is now among the world's most 
severe on-going humanitarian crises, and certainly warrants action of 
some kind in response.
    The problem is what kind of response to provide. Many would like 
the United States to do something, but it is far less clear what can be 
done that could actually solve the problem at a cost the American 
people would plausibly be willing to bear.
    At a minimum, it is very unlikely that a limited program of 
airstrikes would end the killing. Even if these catalyzed Assad's fall, 
which is unlikely, it is even less likely that toppling Assad would end 
the violence, as noted above. It would change its contours, but the 
ensuing warfare could kill at least as many Syrians as today's, as 
Afghanistan's experience in the 1990s suggests. If we are serious about 
ending the killing in Syria then a far more intrusive intervention on a 
far larger scale will be needed. Tilting the playing field a bit from 
10,000 feet is not sufficient for this purpose.
    Nor is arming and equipping the rebel resistance likely to end the 
killing. In fact, the empirical evidence suggests the opposite: Outside 
support normally lengthens such wars and increases the death toll, as 
outside aid to one side in the war typically encourages increased aid 
to the other side from its respective patrons.\15\ The result is often 
stalemate, wherein parallel escalation in assistance yields 
symmetrically higher firepower and more violence rather than a quick 
victory for either side. Unless we are prepared to simply overwhelm 
Iran's ability to assist Assad, aid to the rebels is thus likely to be 
countered by increases in Iranian (or Russian) assistance to Assad 
rather than ending the war quickly in the rebels' favor. In fact, as 
noted above, to truly end the killing would probably require foreign 
boots on the ground, in large numbers, to impose a settlement, enforce 
its terms, and stabilize the aftermath to prevent violence from 
returning into a security vacuum of the sort that Iraq saw after 2003. 
The American people seem unlikely to support this.
---------------------------------------------------------------------------
    \15\ Dylan Balch-Lindsay and Andrew J. Enterline, ``Killing time: 
The World Politics of Civil War Duration, 1820-1992,'' International 
Studies Quarterly, 44 (2000): 615-42; Ibrahim Elbadawi and Nicholas 
Sambanis, ``External Interventions and the Duration of Civil Wars.'' 
Paper presented at the workshop on the Economics of Civil Violence, 
March 18-19, 2000, Princeton University, Princeton, NJ; Patrick M. 
Regan, Civil wars and foreign powers: Outside interventions and 
intrastate conflict (Ann Arbor: University of Michigan Press, 2000); 
Patrik M. Regan, ``Third party interventions and the duration of 
intrastate conflicts,'' Journal of Conflict Resolution 46 (2002): 55-
73; David E. Cunningham, ``Blocking Resolution: How External States Can 
Prolong Civil Wars,'' Journal of Peace Research 47 (2010): 115-127. On 
the impact of third-party interventions on civilian victimization more 
specifically see Reed M. Wood, Jacob D. Kathman, and Stephen E. Gent, 
``Armed Intervention and Civilian Victimization in Intrastate 
Conflicts,'' Journal of Peace Research 49, 5 (2012): 647-660.
---------------------------------------------------------------------------
    Without such a commitment, however, the most that the international 
community can really do is to stand ready to facilitate a negotiated 
settlement if and when the combatant parties become interested in one--
and to apply the limited pressure that sanctions, diplomatic isolation, 
and other non-military means allow. Limited military options--whether 
airstrikes, arms for the rebels, or something else--may or may not 
accomplish anything, but they are very unlikely to end Syria's 
humanitarian crisis.
                              conclusions
    None of the objectives usually cited as motivating American air 
strikes on Syria are thus likely to be accomplished by a limited 
intervention without serious risks. The details differ from objective 
to objective, but the underlying theme that connects them is the 
problem of asymmetric stakes. Assad's existential stake in this war 
gives him an incentive to escalate rather than back down in the face of 
American attacks that threaten his hold on power--and even a limited 
program of air strikes nominally restricted to the prevention of CW use 
poses a threat to Assad's grip: if Assad fails to respond he risks 
being seen as weak by lieutenants he requires for his survival. Assad's 
survival motive, coupled with our limited interests in the conflict, 
restrict our ability to coerce him at a cost we can afford. This 
weakens the prognosis for an attack aimed at any of the objectives 
discussed here--whether to deter Syrian CW use, to buttress American 
credibility, to compel a settlement, to topple Assad, or to resolve the 
humanitarian crisis. All require changing Assad's interest calculus by 
force (and maybe others' as well) but without exceeding the limits 
imposed by our limited interests. If we fail to have the effect we hope 
on Assad's calculus, the result could easily be escalatory pressures 
that lead to bigger, costlier, riskier interventions than those 
promised at the outset--and that quickly exceed our modest objective 
stakes in the struggle.
    It is important to emphasize, however, that there are major limits 
to our ability to predict Assad's actions. Perhaps we will be lucky and 
he will neither test our willingness to respond to further CW use nor 
retaliate elsewhere via proxies such as Hezbollah or allies such as 
Iran. After all, the Israelis struck a Syrian nuclear reactor in 2007 
and the Iraqi reactor at Osirak in 1981 without either state 
retaliating in kind; Assad might judge discretion the better part of 
valor and comply quietly with U.S. preferences on CW use without 
counterattacking or escalating. Of course the context of these attacks 
was very different: Assad is now locked in an existential struggle 
where his own reputation for resolve is under a microscope in ways it 
would not have been in 2007. The safest conclusion is thus surely to 
emphasize our limits of knowledge and prediction. But an important 
implication of those limits is our inability to ensure that a limited 
U.S. attack would succeed in any of its stated objectives. And an 
attack that does not succeed will surely be followed by pressures to 
escalate that are likely to be as great or greater than today's.
    Nor does this suggest that inaction is a costless or risk-free 
policy, either--inaction poses risks and costs of its own. In 
particular, other states and especially Iran could view an American 
failure to make good on the President's ``red line'' commitment as 
evidence that the United States issues empty threats and lacks the will 
to use force. The costs of this reputational effect may be easy to 
exaggerate, but they are not zero. The best way to avoid this problem 
would have been to avoid the commitment, but what's done is done. Hence 
the choice is now between different kinds and scales of cost and risk 
to accept--not between a cost-free and a costly policy. In this 
context, on balance it is probably less risky to accept the cost to 
U.S. credibility and forgo the risk of escalation in Syria. To risk a 
U.S. war in Syria in order to reduce the risk of a U.S. war in Iran 
comes perilously close to Bismarck's famous aphorism that preventive 
war represents suicide from fear of death. But this is far from a 
panacea, and perhaps the most important implication looking forward is 
to be cautious in committing U.S. credibility to situations where our 
stakes are so much smaller than our rivals.

    Chairman McCaul. Thank you, Dr. Biddle.
    The Chairman now recognizes himself for questions.
    Let me just say that we stand here today on the eve of 
September 11, a date we all remember well, not only the World 
Trade Center and Pentagon, but also Benghazi. Al-Qaeda is the 
enemy. Al-Qaeda was the one who brought down the Twin Towers.
    When I look at Syria, it is a bit of a paradox because on 
the one hand, we have a dictator puppet of Iran using chemical 
weapons, and then we have the rebel forces. I think what the 
American people are starting to understand is, who are these 
rebel forces? I ask that question constantly when I get brief 
briefings, who are they? The reports I get is that every day, 
more and more of these outside groups are moving into Syria to 
help out the rebel forces, many of which are not in our best 
interests, many of which--of whom I believe are radical 
Islamists. While Assad is a horrible man and did horrible acts, 
I think the even worse outcome would be groups like these 
radical Islamists taking control of Syria, filling the vacuum, 
getting ahold of these chemical weapons and then using them, 
not just against Syrians but potentially against Americans. I 
believe that to be the greatest threat to the homeland here.
    So, Mr. Joscelyn, with that, let me throw out to you the 
question: Who are these rebel forces?
    Mr. Joscelyn. Well, it is a complex question. There are a 
lot of different factions fighting inside Syria.
    However, the clear trend that we have witnessed is that al-
Qaeda and its affiliates and extremist allies have gotten 
stronger, not weaker, since late 2011, greatly. The way we 
judge that, the way we look at it, is we actually look at the 
real battles, the key battles that are being fought, and try to 
determine who is really leading the charge.
    For example, just in the last week or so we saw this raid 
on Maaloula, a village northeast of Damascus, where an al-Qaeda 
suicide bomber, al-Nusra suicide bomber, actually was the key 
opening to the fight in Maaloula. He approached the security 
checkpoint in Maaloula, blew up a Syrian security checkpoint, 
and then other forces, including al-Qaeda forces, rushed in.
    I would say that sort of scenario we have witnessed over 
and over again. So when you say, ``who are the rebels?'', I 
think it is not as easy as saying there are extremists versus 
moderates. I think all of these terms are not defined, to be 
honest with you, including what is exactly a moderate is not 
defined.
    But the key thing that I would emphasize here is that 
beyond just al-Qaeda's presence inside Syria, there are other 
groups which are extremist groups, including in particular 
Ahrar al-Sham which has tens of thousands of fighters and leads 
the Syrian Islamic Front, which is a key actor on the 
battlefield right now in Syria. They put out propaganda 
statements regularly saying that they are fighting alongside 
al-Qaeda. We can give the details down to a very granular level 
of how many groups are doing that.
    Chairman McCaul. Thank you. I have limited time. I think 
the American people are asking the question should we be arming 
and supporting these rebels forces in light of what you just 
said. The idea that we are arming--and I can't get any 
assurance when I ask the questions, can you guarantee to me 
when we give these rebel forces arms and support, that it is 
not in turn going to go to these more extremist factions? I 
don't think anybody can answer that.
    My next question is to General Scales. I was intrigued by 
your Washington Post article. You state there you talked to a 
soldier who said if you want to end this decisively, send in 
the troops and let them defeat the Syrian army. If the Nation 
doesn't think Syria is worth serious commitment, then leave 
them alone.
    Senator Kerry just described this military operation 
yesterday as ``unbelievably small.'' I believe it is a limited 
strike for face-saving measures. Can you tell me from a 
military standpoint what you think about this military option?
    General Scales. Thank you, sir.
    Well, what we are going to see is a firepower strike. It 
will be an initial strike of 100 or so cruise missiles. We will 
look over the terrain to see what we missed. Maybe we will 
strike twice. Maybe we will strike three times, and then, after 
about 96 hours, we will terminate this. But by the time we 
strike, the Syrian Army will have had the time and the 
initiative, and with that much time, Congressman, they have the 
opportunity to radically lessen the effects of these strikes 
such that the effect on the Syrian Army will be substantially 
less than, say, if we had done this 2 weeks ago.
    What are the consequences? Well, as Steve just said, it 
will have no real effect on the credibility, with our 
credibility in the world, particularly with Iran. They have got 
it. I believe these strikes will only serve to heighten the 
rage among radical Islamists. If the past is prologue, he will 
take his time and strike us when the time is right for him.
    Sadly, I believe these strikes will have no serious 
military consequences on Assad because he can win this war 
without using chemical weapons. He already owns the initiative, 
and he will continue to own the initiative once these strikes 
are over because they won't be militarily significant enough to 
impact the outcome of this war, because his most effective 
weapons aren't chemical weapons; it is artillery and rockets, 
and these are virtually impossible to destroy using cruise 
missiles from the air. So, as Steve said so eloquently, what we 
face is what military people call an asymmetry of ends.
    Chairman McCaul. Thank you.
    I am concerned it will inflame the region and retaliate not 
only Iran and Hezbollah against Israel but at the same time 
embolden and empower these rebel forces, and we have already 
discussed their make up and concern with them.
    Congressman Shays and Dr. Biddle, my time has actually 
expired, but I will take the prerogative of the Chairman, if 
that is okay with the committee, for a few seconds here. We 
have had--someone called it a breakthrough, I am not sure--but 
the idea that Russia, that has the biggest leverage over Syria 
in terms of getting these chemical weapons under the 
international's community's hands, I personally think if there 
is any good outcome, this is an outcome that I would like to 
see pursued. As skeptical as I am of Russia, I do think we have 
a lot of common interests in terms of against the jihadists, 
and they don't want to see the weapons used either. Can you 
both comment on that possibility and whether you think that 
will be a fruitful exercise?
    Mr. Shays. First off, the Nunn-Lugar Cooperative Threat 
Reduction Program has proved we can work with the Soviets. When 
I was with Mr. Lugar in Shchuch'ye, we saw 20,000 artillery 
shells. One artillery shell that leaks could destroy the lives 
of everyone in a full stadium, and there were enough chemicals 
there to kill the world many times over. The Russians know the 
threat of chemicals, and they also have their own terrorists. 
They do not want terrorists to get these chemical weapons. So I 
believe that we can build on it.
    I just would say one other thing. Let's forget about face-
saving as to whether the Russians suggested this or whether we 
did. It doesn't matter. Get the chemicals out of Syria.
    Chairman McCaul. Dr. Biddle, any comments?
    Mr. Biddle. Yes. A few details have been released so far, 
and with this sort of proposal, obviously, the devil is always 
in the details. Whether or not you can actually bring under 
control the Syrian chemical arsenal in a very challenging 
operational environment is unclear.
    That having been said, I think it is clearly worth 
considering this very seriously.
    Moreover, I would set the bar for adequate effectiveness 
rather low. I don't think it is in the U.S. interests to strike 
Syria. If in fact this proposal goes nowhere and we don't get 
some sort of international control over all or part of the 
Syrian chemical inventory and you do what I would prefer, there 
will therefore be no effect at all on the Syrians' ability to 
employ chemical weapons, even an only impartially effective or 
largely ineffective internationalization proposal that takes 
some of the Syrian chemical arsenal off the battlefield or that 
limits their access to some part of what they own is thus 
better than we can get otherwise.
    I think, obviously, it will matter to sort out the 
particulars of how it would work, but I think it is worth 
sorting it out.
    Chairman McCaul. Thank you, Dr. Biddle.
    The Chairman now recognizes the Ranking Member, Mr. 
Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    One of the glaring witnesses that I think we are missing is 
somebody from the intelligence community who can kind of back 
up, support, some of the things we are hearing today.
    But in light of that, Congressman Shays, can you just share 
with me what you would assume a lot of Members have received in 
briefings from our intelligence communities as to this danger 
and how we need to act affirmatively from a response 
standpoint. What I am hearing is from you gentlemen is, what is 
the rush, and if we rush, what are the consequences for 
rushing?
    So can you kind of help me out in this respect? Because we 
are being communicated to almost on an hourly basis about some 
of these situations.
    Mr. Shays. First, let me say if the President really 
believed that a military strike would have been effective, he 
would have done it right away. So, obviously, he had tremendous 
reservations, and, unfortunately, that sent the wrong signal.
    I know all of you are under a lot of pressure, but I 
learned a lot from my vote to go into Iraq and Afghanistan, and 
I have learned a lot about the effectiveness of a strike that 
is being contemplated. In the end, it is a tactic without a 
strategy, and so we have to determine--you have to determine--
what is really our strategy? I believe in all the briefings 
that I have ever received as a Member of Congress that the 
biggest threat is that a terrorist organization will get a 
chemical weapon and be willing to go up with the chemical 
weapon and come into New York City, go into San Francisco, 
whatever, and the consequences of that are huge.
    So I believe that the kind of briefings that you would get 
if you really pursued it is, do not let these chemical weapons 
get in the hands of terrorists. I will say something about the 
terrorists. We are being told that the bad guys are now kind of 
not on the battlefield. Well, it reminds me of Mao Zedong with 
Chiang Kai-Shek. Chiang Kai-Shek fought the Japanese and Mao 
Zedong prepared for the next government. That is a strategy, 
and I think we have to recognize that.
    Mr. Thompson. General Scales, do you have a comment on 
that?
    General Scales. I absolutely agree with the Congressman on 
this, sir. Ultimately, the strategic end-state of what 
hopefully is about to happen is an opportunity to remove these 
horrible weapons from Syria. It almost doesn't matter who uses 
them, whether it is the Syrian Army or whether the insurgents 
manage to get these weapons to some distant place. In either 
case, innocents will die and, as the Congressman said, will die 
in the thousands.
    The sad part to me, however, is that even if we are able to 
control these stockpiles, Assad will continue to kill his 
people with conventional weapons, and I presume it is just as 
horrible to die from a bullet as it is from sarin gas, and this 
sectarian civil war, like a forest fire, will continue to burn 
itself out as one Syrian kills another Syrian. This sad, sad 
war could possibly last for decades.
    Mr. Thompson. In light of what the general just said, Dr. 
Biddle, what considerations do you think should be on the table 
to address the conflict in Syria?
    Mr. Biddle. I think there are things we can do at 
relatively low cost to ourselves that are certainly worth 
doing, most of which we have already done. There are already a 
variety of economic sanctions in place against the Syrian 
regime. We have already isolated the Syrians and their allies 
diplomatically. We have already pledged to provide light 
weapons and ammunition to the Syrian resistance.
    The things that we have already done I think constitute 
reasonable responses. I am not sure that there is a lot that I 
would support beyond those things because I am very skeptical 
about the ability of any of the more forceful things we could 
do to actually bring about our objectives at a cost that we 
would be willing to bear, and I don't think the strategic 
calculus of the decision is all that sensitive to, for example, 
details of what the intelligence base is and what we do or 
don't know about the whereabouts or disposition of Syrian 
chemical weapons.
    I think ultimately the problem here is a basic interest 
asymmetry that limits the ability of small actions on our part 
to bring about big effects at low cost. I think it is very hard 
to avoid the iron relationship in the interests of the two 
sides here with any of the initiatives that I am aware of.
    Mr. Thompson. Thank you.
    I yield back.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Texas, the Chairman of the Science, Space, and Technology 
Committee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, a week ago Saturday, on August 31, the 
President said, ``We cannot resolve the underlying military 
conflict with our military.'' It seems to me that that is an 
argument in opposition to military action, not in favor of 
military action. I also wonder about the administration's 
stated policy not to try to effectuate regime change. I assume 
that is because we don't trust either side. But if there is no 
regime change, Assad still will have the capability or be 
tempted to use chemical weapons. But if we don't have regime 
change and Assad can still use chemical weapons again, why 
commit our Armed Forces to an uncertain goal with few allies 
and no friends on either side of another country's civil war?
    That leads to my first question I would like to address to 
Congressman Shays, General Scales, and Dr. Biddle, and it is 
this: Why is the administration, why is the President unable to 
persuade an international coalition to support our military 
strikes?
    General Scales. Thank you, sir, for the question. There are 
a couple of reasons.
    Mr. Smith. Did Congressman Shays want to pass that on to 
you?
    Mr. Shays. I thought he should start.
    Mr. Smith. Okay. General Scales.
    General Scales. Sir, a couple of reasons, I think. First of 
all, there is a latent distrust of American motives in the rest 
of the world. We have been at war for 10 years in the Middle 
East and a great many folks are nervous about American 
involvement in this civil war.
    Second, quite frankly, just as our citizens are divided on 
this, our closest allies, as we have learned recently in Great 
Britain, and also in France, Germany, the European Union, and 
elsewhere, are extremely reluctant to have anyone engage in any 
war.
    The final reason I will give you is the military answer. 
The bottom line is simply this: If they wanted to engage or if 
they wanted to support us, the United States military today is 
the only military capable of taking any type of significant 
action that might result in an outcome in the civil war. The 
rest of the world has disarmed, and they can only stand by and 
watch.
    Mr. Smith. Thank you, General Scales.
    Dr. Biddle.
    Mr. Biddle. Certainly, there is great skepticism about 
American motives and American purposes, whether in Syria or 
elsewhere in important parts of the world, but there is also a 
general problem that we face in trying to assemble coalitions 
of the willing of this kind and then a specific problem for 
Syria.
    The general problem is it is very attractive for others to 
free ride and pass the buck. If they think someone else will 
act, that reduces substantially the incentives on their part to 
act. That is a problem that we face in assembling coalitions of 
this kind on all sorts of issues.
    The specific problem with respect to Syria is largely the 
one that we have been discussing this morning, and that is the 
absence of attractive options for action that could actually 
bring about any of the coalition's objectives at a cost that 
any members of the coalition are willing to bear. I think many 
of our prospective allies share the assessment of some on the 
panel about the prognosis of military action in Syria and are 
reluctant to start for that reason.
    Mr. Smith. Thank you, Dr. Biddle.
    Mr. Joscelyn, a couple of questions to you.
    Mr. Shays. Could I respond to this question as well?
    Mr. Smith. I thought you were passing.
    Mr. Shays. I just wanted time to think about it. We sent a 
message years ago when we turned our back on the Shah of Iran, 
for whatever reason. We sent a message when we told Qaddafi, if 
you give us your chemicals and other weapons, we will back off. 
We sent a message with Mubarak. They were people that we had 
said certain things to. We sent a message to the generals in 
Iraq. We said, when we were invading Iraq, we said if you turn 
east and don't fight us, you will still have a place. Then we 
disassembled them when we came. So people really question our 
word, and it goes beyond one administration to the other.
    The other is that, I don't know how you felt, but when I 
voted for the war in Iraq, I believed there were weapons of 
mass destruction, wrong, shouldn't have done it. But based on 
that. But even if I thought there were weapons of mass 
destruction, if I thought we would have fought the war we did 
and allow the looting to disassemble folks who were major 
players, I wouldn't have voted for the war. My point is people 
aren't sure we know how to fight this war.
    Mr. Smith. Thank you, Mr. Shays.
    Mr. Joscelyn, real quickly, is there a danger that rebels 
associated with al-Qaeda will benefit from a military strike? 
The second question is: What percentage of the rebels do you 
think are associated with al-Qaeda? I think Secretary Kerry 
admitted that at least 25 percent might be.
    Mr. Joscelyn. I will take the second question first. I 
think Secretary Kerry said between 15 and 25 percent. We don't 
know what the basis is for that estimate. We track the brigades 
that are fighting in Syria very closely. I would say that what 
we find are that there are a number of brigades that aren't 
technically al-Qaeda that fight alongside them so it sort of 
increases the size of their Army inside Syria. I would say that 
I think that 15 to 25 percent is probably too low in terms of 
who the actual extremist forces are inside Syria right now with 
al-Qaeda and its allies.
    In terms of benefiting--the potential to benefit al-Qaeda's 
affiliates inside Syria, none of the strikes as they have been 
defined to me, I don't know specifically what is on the table 
in terms of strikes, so I can't know specifically what they 
would do, but there is certainly a potential to harm one side 
and not the other. When al-Qaeda is playing a leading charge on 
the other side, the potential is there.
    Mr. Smith. Thank you, Mr. Joscelyn.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes the gentlelady 
from Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman, and I thank the 
Ranking Member for his courtesies in moving this hearing 
forward, and I know that each Member will count this as an 
important contribution to their ultimate decision as relates to 
the serious situation in Syria.
    Some of us have taken to meeting with Syrian Americans in 
our Congressional districts. We know that there is a divide 
even among them, but many of them believe that something has to 
be done to cease the slaughter.
    I am glad, Dr. Biddle, that you mentioned that the 
administration has over the years done--has engaged and 
provided resources, humanitarian and other resources, to the 
rebels that were established to receive such, and so to 
discount anyone's suggestion that nothing has been done.
    For those of us who have been troubled by war and are still 
undecided, the one thing that I would hope that we don't 
dismiss, and I don't believe it has been said, except for 
general comment, the heinousness of the impact of chemical 
warfare and the devastating video of the death of children, 
which I think has touched the President's heart. I would take 
issue on this question of credibility of this administration. 
It is constantly raised, and I believe that it has no place for 
in discussions with representatives from international 
countries, foreign countries, it is often said that America is 
the greatest country in the world, and we can solve every 
problem. So for a country that doesn't have credibility, it 
seems interesting that foreign nations still look to America to 
solve problems. I think we do ourselves well to wash our mouth 
with soap about our credibility. America still stands as a 
country that can be effective.
    The President's concern, and turning back to Congress, I 
believe, is a reflection of his own history. There is nothing 
shameful about that and I hope that we would give credibility 
to the idea that the President is consulting with Congress 
regardless of where we stand.
    Let me also put on the record that this issue with Russia 
was raised more than 2 or 3 years ago regarding the idea of 
capturing the chemical weapons. It does matter who raised it 
first. It has been characterized as a Russian offer. I have no 
ego problem with that. Neither does America. I think the 
question has to be as to whether or not Russia is serious. We 
want diplomacy. We wanted it 2 years ago. We wanted it when we 
took resolutions to the United Nations four times and Russia 
vetoed it in July 19, 2012; March 8, 2012; February 4, 2012; 
October 4, 2011; they vetoed it. Russia is not the shining 
knight on a horse. But I do hope that we can have the 
opportunity for a concrete resolution and have it by this week 
because diplomacy does save lives, but lives were lost due to 
chemical weapons.
    So, let me ask this question, I take issue with, I do think 
that the backdrop of the Iraq war, which I proudly voted 
against, was really the taint that brought us to where we are 
today. I think America's credibility was severely damaged 
there, and I think the point made about the Baath generals was 
true. Unfortunately, we did not adhere to our word. But I take 
issue with the fact that our credibility is in shambles. People 
make their decisions on their own political interests, and we 
know that on the international forum.
    So let me ask this question to all of you.
    In the heinousness or the possession or the question of the 
possession of chemical weapons, do you believe that a 
resolution that would include the securing of the chemical 
weapons, that would include the international community, 
because I do believe that if this is real that Russia and the 
United States can agree to the international community will 
come together?
    France is taking a resolution to the United Nations, as I 
hope soon, and the question will be what will be the results. 
But I ask the question: No. 1, can you state for anyone who 
wants to do it how heinous the use of chemical weapons is and 
that that does bring a question of National security interest, 
and No. 2, what kind of securing of those weapons would make 
you come comfortable and that we truly have a resolution, may 
not end the Syrian conflict, which I believe should be done 
peaceably and through negotiation, but what, how important do 
you think that would be?
    Mr. Shays. Thank you, Congresswoman Lee, for your great 
question and your comment. I think the worst thing we can do is 
get in a battle over who thought of this first. As you know, if 
you don't care who gets the credit, you get a lot more done. 
Right now, whatever it takes to get the Russian government to 
support getting chemicals out of Syria should be our task. 
Frankly, I think that it does no good even for Congress in the 
end to focus too much on the President right now because he 
needs to get as much support as he can get so he can help 
marshal the support of others.
    General Scales. I absolutely agree with the Congressman. 
Someone said the other day, well, there is just no way you are 
going to get 1,000 tons of chemical weapons out of Syria in a 
short period of time. My view is any effort to get any chemical 
weapons out of Syria no matter how long it takes and no matter 
how much resolve is necessary is worth the effort. Because to 
your point, when you use chemical weapons against innocents, 
that elevates the brutality of the conflict, and it also, 
frankly, endangers the homeland. So if it is imperfect, if it 
takes a long time, my view is, do it, because it is worth it 
and, in the end, will save lives both in places like Syria and 
here at home.
    Chairman McCaul. The gentlelady's time has expired.
    Ms. Jackson Lee. Mr. Chairman----
    Chairman McCaul. I will allow Mr. Joscelyn.
    Ms. Jackson Lee. I would greatly appreciate it. Mr. 
Joscelyn, if you could also talk to the brutality or the impact 
of chemical weapons on children that at least the video showed, 
and Mr. Chairman, just I appreciate witnesses' comment, just 
one comment----
    Chairman McCaul. And I appreciate that we have a lot of 
Members and a lot of questions.
    Ms. Jackson Lee. This is not who gets credit; this is to 
recognize that we are working together on the issue of chemical 
weapons.
    Chairman McCaul. Let the witness make his remarks.
    Mr. Joscelyn. Well, just, real quick, to your point about 
the sort of politics of the whole thing. David Sanger, I 
believe it was, in the New York Times had a great piece about 
how the administration is going back years now, including the 
Bush years and before, have really not done enough to secure 
the chemical weapons that the Syrian government was pursuing 
through international means, whether it be its partnership with 
Russia or others. So this has been a problem that has been 
decades in the making, not just in recent times.
    This is something that there has not been a significant 
enough effort to really curtail what the Syrian government and 
Assad regime was doing there. To your point about brutality of 
weapons, I review every day al-Qaeda's Facebook pages, 
websites, social media, everything else. One of the big things 
they are using right now in their recruiting is the horrific 
pictures of these children that have been killed by these 
chemical weapons in Damascus and elsewhere, and they are using 
it to talk about the horrors of it.
    The other side in this fight is actually using this because 
of how horrible they are to say, you know, come support us 
against Assad because of the horror of the chemical weapons.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from New York, Mr. King, the former Chairman of the Homeland 
Security Committee.
    Mr. King. Thank you, Mr. Chairman.
    Thank you for holding this hearing and I will probably be a 
minority of maybe 1 today in that I do believe that action 
should be taken in Syria, but I have great respect for all the 
witnesses. Congressman Shays and I worked together for many 
years, and he was an outstanding Member of this committee. 
General Scales and Mr. Joscelyn has been a witness before this 
committee, when I was Chairman in fact.
    My concern is that on several counts, one if Syria, if no 
action is taken to degrade Syria, you have this access between 
Syria and Iran in that region of the world and this will 
greatly embolden and strengthen that access, which is why 
Israel supports us taking action in this case, which is why 
Jordan supports us taking action in this case, and they are the 
two nations most involved over there.
    General Scales you were saying that sectarian civil wars, 
that they can't be ended by third parties. I was here when we 
voted on Bosnia back in 1995, and that was looked upon as a 
centuries-old civil war. The fact is, after 3 weeks of American 
action, that was brought to a close, and for the most part, for 
the last 18 years, there has been a, if not peace, at least a 
modus operandi, at least a semblance of stability in Bosnia. I 
also I want to say that may have prevented Islamic militants 
from taking a hold in Bosnia, which they had threatened to do 
in Sarajevo at that time.
    Also the question of credibility, I am not looking at the 
question of saving face, but I think if the President of the 
United States does lay down a red line and then a year goes by 
and a red line is crossed and then without ever mentioning 
Congress being involved at all, very last minute, he says 
Congress should be involved, that is a wavering. When he says 
it is not his red line, it is a wavering.
    I think it is important that we maintain credibility, not 
for the sake of saving face but for credibility, not just for 
enemies like Iran but also for our allies. For instance, we 
have persuaded Israel not to attack Iran in their nuclear 
development because we have assured them if they cross a red 
line, we will prevent that from happening. But the fact is that 
if Israel sees that we allow Syria to cross a red line on 
chemical weapons, why should Israel trust us to prevent Iran 
from crossing the red line on nuclear weapons?
    Also, there has been talk of we should have an 
international coalition. That on paper sounds good. I remember 
Kosovo, we had 21 nations involved in a coalition; 21 nations 
involved in a coalition, it was entirely air strikes. The 
United States carried out 95 percent of them; the British 
carried out 5 percent. The reality of the world we live in, 
whether we like it or not, is the United States is the only 
military power capable of carrying out any type of effective 
military action. So while it looks good on paper and it would 
sound good, the fact is not having a military coalition with 
this doesn't mean that much.
    The other concern I have is with, and believe me, I 
appreciate all the points you are making. This is not an easy 
call. When we saw Russia coming in, it is not a question of 
giving credit; Sadat put Russia out of the Middle East 40 years 
ago. Other than that one-on-one relationship with Syria, there 
is not any real Russian involvement in the Middle East.
    Do we want to now bring Russia back in and establish them 
as a major power in the Middle East, maybe even a veto power 
over our actions?
    I know, General, you said that even if it is a long effort 
to get out the chemical weapons, it should be done. I agree 
with that. But because it could be such a long effort, couldn't 
that indicate the Russians are not serious about it? If you do 
have a thousand tons, if you do have 50 locations, if you do 
have a civil war going on, and you would need thousands and 
thousands of U.N. inspectors to come in, it makes it almost 
impossible. So, by the time we realize that, time has gone by 
and our threat of military action will have passed.
    So, again, I think we should explore it, examine it, but 
keep in mind that having Russia as a major player in the Middle 
East could have long-term consequences.
    Also, as far as the terrorist groups, and I am not trying 
to set one committee against the other, I know on the 
Intelligence Committee meeting with people in the intelligence 
community, they say they are reasonably confident--I am not 
saying it is right because, as we know, there has been wrong 
intelligence before, but they can separate out the terrorists, 
the Islamic groups from the more mainstream moderates if you 
will and that we could arm the mainstream groups, prevent those 
weapons from going to the terrorist groups, and if this set of 
bombing attacks could force Syria to go to the negotiating 
table, that would give us more leverage to isolate out and 
screen out the terrorist groups during those negotiations.
    Now, on balance, that is the reason I am for it. Any of you 
I would ask General Scales I guess and any of you want to 
comment on any of the points I made, not that they are 
particularly profound, but I would be interested in your 
thoughts because I have tremendous respect for all of you. 
Thank you.
    General Scales. If I could answer first sir. First of all, 
I feel a little bit self-conscious about arguing with you 
because we have had these conversations for years.
    But let me just make a very brief statement. Nations should 
not go to war for credibility, for issues like honor or for 
esoteric ends. Nations commit acts of war for a specific 
achievable strategic end; to quote Dave Petraeus, ``tell me how 
this ends.'' If we can't come up with a path to success, then 
merely committing an act of war to maintain, establish, or 
reestablish our credibility, I think is a wrong strategic 
objective.
    I think what I just said, sir, really reflects the 
sentiments of the American people because it doesn't resonate 
with them that what is in it for us, terrible as this war may 
be, please explain how this ends.
    Mr. King. I know my time is expired, but General Petraeus 
has endorsed this proposal. He has over the weekend come out in 
support of it, and I would say the overall strategy is not just 
to save credibility for the sake of saving face but to reassure 
countries like Israel that we will stand with them when the 
moment comes.
    I yield back.
    Chairman McCaul. The Chairman will now recognize the 
gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    First of all, I want to recognize Congressman Chris Shays, 
a gentleman I had the honor of serving with, one of the most 
thoughtful Members of Congress. As a new Member of Congress in 
2006, we traveled the Middle East, nine countries in 11 days. 
In fact, Nick Palarino was with us. We were in the refugee 
camps in Darfur. We were in Lebanon, in Israel, in the 
aftermath of the Hezbollah Israeli war, so I have always had 
great regard for Chris Shays, and I want to welcome him back.
    Let me also say this at the outset. The situation in Syria 
is that of a national civil war. It is sectarian, and it is 
ethnic. This is not about freedom and democracy. There is no 
social contract. There is no preamble. There is no unifying 
vision for what Syria wants to become. This is a fight about 
control, a brutal dictator, Assad and his militias, and an 
opposition, who is represented, their best fighters are al-
Qaeda and Islamic extremists bent on creating an Islamist state 
in Syria. So there is no good military option for the United 
States.
    But there is an issue I want to address, which has been 
referenced here and throughout this debate. It is that 
America's credibility is on the line in Syria, that America's 
credibility is on the line in Syria. Really?
    Not the America that I know. Not my America. The 
international community, 194 countries, an international 
community, but for Turkey and France, that says, yes, we agree 
with you, the United States, Assad is a toxic murderer, go get 
him. Just don't ask us to participate.
    So the United States will enter another regional civil war 
for the third time in the past decade, essentially alone, 
again.
    The Arab League, 22 member states in the Arab world, whose 
strategic interests are tied to the stability of the region, 
their response to Assad's murderous ways are convoluted and 
weak, pathetically weak. You are telling me America's 
credibility is on the line in Syria?
    The Arab Muslim world, a civilization of 250 million people 
who have been in a destructive war with each other Shia and 
Sunni about who is the rightful successor to the prophet 
Mohammed's political and spiritual leadership since 632, the 
Seventh Century. The Arab Muslim community is a population of 
250 million people, one half of which are under the age of 25. 
So Shia and Sunni are involved in a sectarian conflict against 
each other without any regard for the future of the children in 
that community. America's credibility is on the line?
    Finally, the American people, the American people are sick 
and tired of war. Afghanistan and Iraq is as violent and as 
backward as it has ever been, $2 trillion, 6,668 American lives 
lost, tens of thousands of young men and women coming back to 
this country both physically and mentally destroyed. America is 
underachieving. What the American people want is a strong, 
prosperous America. Richard Haass wrote the book, ``Foreign 
Policy Begins at Home.''
    We have to build nations not in Afghanistan, not in Iraq, 
not nation-building in those places, but nation-build right 
here at home, investing in the American people, in the American 
economy. There are no good options for the United States.
    I heard a spokesman from the White House say today, that, 
why are the people--well, it is complicated. That is insulting. 
That is insulting.
    The American people are way ahead of Washington on this 
issue. They do not want a war in another part of the world that 
we cannot win, that we cannot litigate toward a successful end. 
They want to nation-build in America. So I just think it is 
important that we say that. America's credibility is not on the 
line. We are the greatest Nation in the history of the world. 
We have demonstrated greater generosity to the international 
community than they will ever respond to us.
    So let's stop this nonsense about Americans' credibility is 
on the line in Syria.
    With that, I will yield back, Mr. Chairman.
    Chairman McCaul. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Meehan, is recognized.
    Mr. Meehan. Thank you, Mr. Chairman.
    I want to thank this distinguished panel for being here 
today at a time in which the discussions taking place in 
Washington are certainly broader than many that we have, I have 
had the privilege to participate in during the course of my now 
second term in Congress, but I thank each of you for your 
service as well.
    We have had a lot of discussions about the implications 
with regard to what is happening in Syria itself. But I am 
mindful, I chair a committee on, a subcommittee of this 
committee that deals with the issues of cyber and the cyber 
threat. One of the realities of the tremendous network that we 
have created by virtue of the internet is the recognition that 
we have been globally connected, and therefore, an avenue of 
activity and accessibility leads into every fundamental 
institution of the American way of being, from industry to 
daily communications that we are taking place.
    One of the things that was used by a colleague in a matter 
just the other day was a Newton's law to every action, there is 
going to be a reaction. While I know that we have spent a lot 
of time analyzing what the rationale and purpose might be of 
any kind of activity, it is also important to go two steps down 
the line in the chessboard and determine what happens as a 
result of anything that take place.
    We are aware that in the course of recent weeks, we have 
had a group, the Syrian Electronic Army; Assad himself has had 
a history of awareness and connection to cyber.
    Now, most of the assessments that I have read seem to 
identify a group that is probably no more malicious than 
Anonymous or others. They have found sort of back-door ways of 
getting involved and using things likes spear phishing and 
other kinds of avenues to create changes of things that are on 
pages of newspapers.
    But I am concerned, and I want to have the assessment of 
those of you who think about actions and then think about 
actions two or three steps and recognizing the fundamental 
structure of our cyber. Is it not foreseeable that that could 
be an avenue for reaction in the event that any kind of a step 
is taken? I would like to have you address that, not just in 
the focus of Syria themselves, because my greatest concern here 
is Iran, and a recognition that much of what may be happening 
in Syria today is happening because of its relationship or 
enabled by virtue of its relationship with Iran and the 
resources Iran has brought to the table.
    There is absolutely no question about the far more serious 
capabilities of Iran, including its capacity to influence 
things with out-of-service attacks and others. We saw what they 
did in with Aramco in Saudi Arabia, attacking 30,000 computers 
and shutting them down and affecting the ability for that oil 
industry to operate.
    Is it not foreseeable that in the event of a military 
action in Syria there is a possibility, and how likely is it 
possible that an act could be carried back into the United 
States utilizing all of the methods of subterfuge and cover and 
other things in which cyber becomes a new area for warfare and 
one in which the United States itself may be subjected to 
greater vulnerability than many people appreciate? Congressman, 
I would love for you to----
    Mr. Shays. Congressman, this is a huge issue. Ranking 
Member Thompson and your Chairman have said how important it 
is. I really believe they are separate issues, primarily 
because you can do cyber terrorism without there being a trail. 
I believe Iran and other countries will do whatever they can 
regardless of what we do in Syria.
    Mr. Meehan. General, your thoughts on this.
    General Scales. Well, I am a technological troglodyte, and 
I am probably the last person to answer your questions. I think 
cyber is important, and Keith Alexander is one of my best 
friends. But don't get too distracted by this. Cyber is an 
ancillary means of warfare that is used to distract an enemy 
rather than to destroy him. Is it serious? Of course, it is 
serious. But if we went to war with Iran, and the result was a 
nuclear weapon in New York City or someone releasing a couple 
hundred pounds of sarin in the New York City subway, then the 
discussion would probably move pretty quickly away from cyber 
and more into the more kinetic and frightful aspects of war.
    Mr. Meehan. But do you think that shutting down of the 
30,000 computers and the attack that took place in Saudi Arabia 
was just an inconvenience, or was that an act of war?
    General Scales. I don't think it was an act of war. I think 
it was beyond inconvenience. I think it is somewhere in 
between. But you know, I had an old first sergeant in Vietnam 
the used to say to me, sir, the main thing is to keep the main 
thing the main thing. The main thing we have to worry about 
with Syria is to keep chemical weapons away from our shores.
    Mr. Meehan. I know, Mr. Chairman, my time is expired, just 
whether either of the other two panelists have any comments 
regarding that question.
    Mr. Biddle. I guess all I would add is that one of the more 
important features of cyber is the ability to act in a limited 
way that does not generate massive retaliation from the target. 
That says something about the degree of concern that we should 
have in the larger context of threats that we face.
    If Syria or Iran, for example, were to use cyber, they 
would probably, (A) make an effort to conceal their involvement 
in it and, (B) make an effort to make sure that they don't 
actually kill large numbers of Americans, because were they to 
do either of those things, were their fingerprints to be too 
clear or were the pain level they were to inflict on Americans 
were too great, then our interests would be fully engaged, and 
we are militarily capable of doing terrible things to either 
country.
    So my guess is that the likely nature of the cyber response 
will be designed to be moderate enough to keep it under what 
they expect to be an American retaliatory threshold.
    Mr. Meehan. My time is expired, and I thank you for your 
observations.
    Chairman McCaul. The gentleman from New Jersey, Mr. Payne, 
is recognized.
    Mr. Payne. Thank you, Mr. Chairman, Mr. Ranking Member, and 
to the distinguished panel, we have here a good friend of my 
father's for many years. They served together. It is great to 
have Congressman Shays here.
    I just want to start with something that the point the 
Congressman made when he went back and talked about our 
experience the prior decade with WMDs and knowing what we know 
now how that information turned out not to be factual. That is 
why the American people are where they are today on this issue 
because of their experience in past conflicts in the last 
decade.
    So I don't blame them. They have been sent down a road and 
told things that exist that they found out never existed. So 
they are wary.
    I think that this new third option that has opened up in 
the last day is promising and potentially could keep us out of 
this conflict to the degree that looked like we were going.
    But I want to ask the question that was on my mind because 
I was still had been undecided and giving the President an 
opportunity to make his case. My constituents have made it loud 
and clear where they expect me to be, but I felt that it is 
only right to give the President the opportunity to make his 
case.
    I don't think--and, General, you talked about the length of 
time that we have been involved in this and them having the 
opportunity to move their chemical weapons around and what have 
you, and I think that with the technology that we have, we are 
able to follow them fairly well in everything they are doing 
from vantage points high up in the sky.
    So I wasn't as concerned as the Syrian response as I was to 
if Russian nationals, technicians, people working there in 
Syria were killed and what that retaliation would be.
    I know that the Russians moved two of their ships into the 
area, and what would their response be? So that was the thing 
that concerned me more, the escalation of Russian nationals 
being harmed in that theater.
    What is your take on that?
    General Scales. Well, I think there are two groups that we 
need to be concerned about. Certainly, the Russians, I think I 
heard the figure 25,000 Russians, but I have also heard the 
figure 10- to 15,000 United Nations humanitarian workers who 
are now in Syria. Once you loose the dogs of war, you never 
know how this is going to end, Congressman.
    I remember very well a cruise missile striking the Chinese 
embassy in 1999 and the effects of all that. Precision weapons 
are precise, but they are not perfect, particularly if your 
targeting is not so good. So I think your caution and your 
concern is spot-on.
    The second and third order of effects of any act of war are 
always unpredictable, and I would argue with you, almost 
without exception, it is harder, bloodier, longer, more costly, 
and more debilitating after you go in than it is before you go 
in.
    Mr. Payne. Then to the, you know, to the strike itself and 
you said the potential 100 cruise missiles being used in doing 
the initial attack and then assessing where you are and then 
finishing it up, I think when we talk about small and limited, 
I think that is relative. I think you know 100 cruise missiles 
in this area and then looking where we are in over a 4-, 5-day 
period, I think we could do major--even though we call it 
limited, it is relative based on the size and our capability.
    General Scales. That is right. If you are underneath one of 
those cruise missiles when it goes off, it is certainly not 
limited. But recall that we fired 248 cruise missiles against 
Libya over however many days, along with many, many other types 
of ordnance, and it took a while to get that done. We talked 
earlier about Kosovo and Serbia. Remember that was a 78-day 
campaign, 78 days, and a lot of people were killed in that 
effort. So the odds of hurting the wrong people and killing the 
innocents in a war like this can't be discounted.
    Mr. Payne. Thank you, Mr. Chairman, I yield back.
    Chairman McCaul. The Chairman now recognizes the Chairman 
of the Oversight and Management Efficiency Subcommittee, Mr. 
Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    Thanks for the timeliness of this hearing, entitled 
``Crisis in Syria: Implications to Homeland Security.'' I am 
going to try to keep the focus on homeland security, but I 
would be remiss if I didn't talk a little bit about Benghazi 
from the simple standpoint that we heard from the 
administration yesterday in a classified briefing about their 
levels of certainty about the use of chemical weapons and the 
level of certainty that they believe the Assad regime did that.
    I am just baffled by the fact that we can come up with that 
level of certainty when we can't identify the perpetrators in 
Benghazi that killed four Americans when we had personnel, U.S. 
personnel on the ground involved in that attack, we had eyes in 
the sky with Predator drones watching the thing unfold, but yet 
we can come up with a level of certainty that Assad was 
involved in the chemical weapons attack in Syria.
    So, in my time in Congress, I have focused my attention on 
Iran and Hezbollah's deepening relations with countries here in 
this hemisphere. Terrorist groups specifically aligned with 
Iran have publicly stated their intent to attack the U.S. 
embassy in Iraq as well as within the U.S. homeland if Syria is 
attacked.
    I would caution America that Hezbollah and its possible 
sleeper cells could launch some sort of retaliatory attacks 
here in the Western Hemisphere, and so I raise that awareness.
    I want to thank the gentleman and the panelists for your 
comments today.
    General Scales, I think you are spot-on. I think your 
opening testimony was heart-warming and spot-on with regard to 
the threats that we do face.
    The question I have for you is: How long has Syria had 
chemical weapons?
    General Scales. Congressman, Syria's possession of chemical 
weapons goes all the way back to the days of the Cold War, when 
the elder Assad assumed that the only way he could have a 
reasonable retaliation against Israel's possession of nuclear 
weapons was for him to have an overwhelming stockpile of 
chemical weapons as a sort of retaliatory means.
    The problem, of course, is that he just went completely 
nuts in getting chemical weapons; the figure, unclassified 
figure I have seen is 1,000 tons.
    Mr. Duncan. It is a bunch, and it is not a relatively new 
phenomenon that he has had those. So how long has a civil war 
in Syria been raging?
    General Scales. Oh since, almost 2\1/2\ years now.
    Mr. Duncan. About 30 months maybe. So we have had a 30-
month long civil war, you have got 1,200 different rebel 
fighting groups in and around Syria, not just centrally-located 
in one geographic region because it is a civil war. So 1,200 
different rebel fighting groups, 1,000 tons of chemical 
weapons; based on the testimony today, we understand that the 
terrorists or terrorist cells already have chemical weapons. 
Whether they were apprehended by the Turks or whether they were 
apprehended by the Iraqis, evidence points to the terrorists 
having some access to sarin gas. I am not saying that that they 
used it in Syria. What I am trying to, the point I am trying to 
bring out is the fact that if this is about keeping the 
chemical weapons out of the hands of the terror cells, we are a 
little late, because the evidence points that they are already 
have some hopefully minimal amount of chemical weapons.
    So the question I have is: How will a military action by 
the United States, acting unilaterally at this point or with 
very little international backing, keep the terrorists from 
gaining access to chemical weapons?
    Yes, sir, and then I will go to Mr. Shays.
    General Scales. In my opinion, in a word, it won't.
    Mr. Duncan. Congressman.
    Mr. Shays. It would make it more likely that if we weaken 
this regime, that the terrorist elements will be more likely to 
get it. The argument, though, that some is already out is just 
like a wake-up call to get and work overtime to get these 
chemicals out of Syria.
    Mr. Duncan. So I ask you gentlemen would it not have been 
better versus beating the drums of war and possibly going at 
this unilateral striking and punish Assad for his use or 
perceived use of chemical weapons, would it have not been 
better to start working with our international community in the 
international court of public opinion to build a coalition 
based around the signatory countries to the chemical weapons 
convention?
    Mr. Shays. Absolutely.
    Mr. Duncan. And say: Look, let's have economic sanctions, 
let's have a blockade of Syria, let's cut off their ability to 
be resupplied, let's really punish him in a lot of ways, versus 
the United States standing up and saying we are going to go in 
there and strike, but we have no idea what the results of this 
strike is going to be. We have no idea what the retaliatory 
strikes will be whether Israel will be attacked themselves by 
Assad or whether other countries will be drug into this, 
whether Assad actually launches an attack on the United States 
Navy sitting 250 kilometers off the coast with their surface-
to-surface missiles. There are a lot of dominoes that are ugly 
to fall if we go after this alone and if we go after Assad's 
chemical weapons, without a real plan of attack, without an 
end-game in mind, and then do the terrorists actually gain 
further access to these chemical weapons? Do they bring to the 
Western Hemisphere and do they launch a retaliatory attack 
against the homeland? The focus of this hearing is implications 
to homeland security.
    I think the implications are not pretty and so I urge 
caution while these winds of war blow.
    I yield back.
    Chairman McCaul. I thank the gentleman.
    The gentleman from Texas, Mr. O'Rourke, is recognized.
    Mr. O'Rourke. I want to thank the Chairman and the Ranking 
Member for making this hearing today possible. Ostensibly, we 
are talking about implications for homeland security, but I 
think foremost in all of our minds is that we have been asked 
to make what for me in my 8 months as a freshman Member will be 
the toughest vote I have had to make and maybe for Members who 
have been here for many more terms. So this is perhaps the most 
solemn responsibility we have as a country and certainly as 
Representatives of our constituents on whether or not we go to 
war.
    I wish that every Member of Congress could hear the 
testimony that each of you gave today. I think it has been 
incredibly helpful to put the decision in perspective and to 
make sure that whatever we choose to do, and many people have 
said today reasonable people can disagree, and I have heard 
compelling arguments on both sides, but whatever we choose to 
do, that we make the most informed intelligent decision 
possible and fully to the best of our ability understand the 
ramifications of that decision.
    But, as the General said, war is perhaps the most 
unpredictable of human endeavors. For me, it is hard to get 
past that. The assurances that whatever we do will be perfectly 
calibrated to dissuade Assad from using chemical weapons while 
not destabilizing him enough to allow al-Qaeda-affiliated rebel 
groups to dominate the battlefield and perhaps obtain those 
chemical weapons, it is hard to believe that, not because of a 
credibility issue; it is because war is unpredictable 
inherently.
    I think you made that case very well, General.
    Dr. Biddle said something that I thought was very 
important, and that is that this idea that the international 
community and the member countries can pass the buck on these 
tough issues. Following the financial meltdown, we talked about 
a moral hazard here in the United States that we created, where 
financial institutions could do really whatever they wanted, 
however irresponsibly, because ultimately, the Government and 
the U.S. taxpayer was going to be there to pick up the buck.
    I feel like something like that is happening in the 
international community. I think the President at a news 
conference said that the leader of a smaller country had 
approached him at the summit and had commiserated with him and 
said, you know, Mr. President in my country, no one expects to 
do anything, and so I really have a free ride on this issue.
    So, with that being said, and Mr. Higgins mentioned that we 
are dealing with battles that have been going on since the 
Seventh Century and certainly, in modern times, since the fall 
of the Ottoman Empire, what is our role within the 
international community to address this specific crisis and 
also to remove that moral hazard and create the will for the 
international community to respond to this and other crises 
that are certainly to rise in the near future? How do we lead 
in this way nonmilitarily?
    Mr. Biddle. I think the natural way forward is to do much 
of what we have been doing for the last several years in Syria. 
We have in fact been quite active in trying to generate 
international economic sanctions against the Syrian regime, 
again in trying to isolate the Syrian regime diplomatically. 
This strikes me as an entirely appropriate way forward. We have 
been trying to play a role, at times together with Russians, in 
facilitating a negotiated settlement to the war.
    These things strike me as entirely appropriate. I think the 
administration deserves some credit for having pursued them. I 
think they are rather unlikely to bring about our objectives, 
unfortunately. My guess is that, at the end of the day, the 
situation in Syria is bad, will probably get worse, and what 
our scale and scope of options for making it any better are 
unfortunately rather limited. But I think that the best ones in 
many ways lie along the lines that we have just been discussing 
as limited in efficacy as they are likely to be.
    Mr. O'Rourke. Congressman Shays, General Scales said we are 
operating in a strategy-free zone. What is your advice to 
Members of Congress and how we can constructively work towards 
developing a strategy with the international community?
    Mr. Shays. I love the word ``constructively.'' One is, you 
know, we have an opportunity to work with the Russians. We have 
proven we can do it in the elimination of nuclear, biological, 
and chemical weapons. We need to go into this expecting we will 
succeed. We should be going throughout the world saying we 
accept the offer of the Russians to do this, and then if the 
Russians fail to come through, the rest of the world will know 
we gave it a shot, and it was the Russians' fault, and they 
will be far more sympathetic to other types of action. But it 
can be done. But you start by knowing it can be done.
    Mr. O'Rourke. I appreciate that my time is up, but I want 
to say thank you again for everyone who testified today.
    Chairman McCaul. The Chairman now recognizes the Chairwoman 
of the Emergency Preparedness, Response, and Communications 
Subcommittee, Mrs. Brooks from Indiana.
    Mrs. Brooks. Thank you, Mr. Chairman, and thank you very 
much to you and the Ranking Member for hosting this very 
important meeting. I want to thank all the witnesses for your 
time.
    As Chairwoman of the Committee on Emergency Preparedness, 
Response, and Communications, I am very interested and 
concerned in hearing about what your thoughts will be, and I 
actually don't think there has been enough discussion in the 
briefings that I have attended, and I have attended a few now, 
on what the potential retaliatory strikes might be and what the 
international backlash might be and how we should prepare for 
that.
    We have been very focused on convincing everyone that Assad 
perpetrated these crimes, and I am convinced and believe that 
we do have the evidence that it was the regime.
    I, too, have met with Syrian Americans in my district, and 
they have told me for months about the horrible crimes that the 
Assad regime has been perpetrating against his own people.
    But yet once--I am not convinced that we have a strategy 
with respect to the chemical weapons, the disposition. A 
Pentagon report in 2012 said it could take 75,000 U.S. troops 
on the ground to secure the chemical weapons, and so the 
dispersement of the chemical weapons I think continues to be of 
grave concern.
    But yet beyond that and what others have mentioned, Iran's 
possible retaliatory strike and others, I am curious what your 
thoughts are about what we should be anticipating after we 
institute a strike, and we are not talking about that very 
much. I ask it from each of your perspectives.
    Mr. Shays. Well, I go under the assumption, first, that 
Assad is a smart person. He has to know that if these chemicals 
get dispersed around the country, they could get in the wrong 
hands, even in his country, and be used against him. I would 
think we would be doing him a hell of a gift to get them out of 
the country. There is a part of me who thinks he may think 
that, too. I have a feeling that the Russians will be making 
that argument.
    In terms of all the other types of things that could 
happen, we don't really know because I think we have talked 
about a tactic and not thought about the strategy. If you think 
about the strategy and then figure out where the tactics sit, 
then you think about the negatives that could occur from it and 
also the positives.
    Mrs. Brooks. Thank you.
    General Scales. Very briefly, I absolutely agree with the 
Congressman. We don't know how this ends because we don't have 
an end-state that we can anticipate. There are so many 
consequence, post-strike consequences, that we can't even begin 
to speculate on what they will be. All we can say is that it 
can't be good for us. A small strike that merely rattles the 
Syrians, leaves Assad in power, the army is still the strongest 
military force in the region. After the strike when we have 
this vacuum, the resistance is going to be dispirited. Iran, I 
think, will be emboldened. Then the ball quite literally is in 
our court.
    You have made your strikes. Your 72 hours are over. This 
horrible man is still standing. The chemical weapons are still 
there. What do you do now? I am afraid, I hope that is a 
question we never have to answer.
    Mr. Joscelyn. Just real quick, Syria and Iran have been two 
principal sponsors of several terrorist organizations, 
including Hezbollah and at times Hamas and others, going back 
to 1983 and the bombings in Lebanon. You can see what that 
access can do in terms of bombing our diplomatic facilities and 
that type of thing. You can never assume away the potential for 
them to activate terrorists against us in some way around the 
world.
    Mr. Biddle. I want to emphasize what General Scales said 
about the difficulty of predicting what Assad will do for a 
variety of reasons. There has been a lot of discussion about 
possible retaliatory action, largely against U.S. or allied 
targets outside the United States, mostly on the argument that 
those are softer, more assailable, easier for proxies of Syria 
or Iran to attack. So it is certainly possible that U.S. 
embassies abroad could be struck. It is certainly possible that 
Israeli targets could be struck. It is not inconceivable that 
the U.S. homeland could be targeted, but I suspect that is 
somewhat less likely.
    Now I say the following as someone who opposes U.S. 
military action, who is very worried about the risk of 
escalation, either in the form of Syrian retaliation or in the 
form of slippery slopes on our own side of things. But in the 
interest of intellectual full disclosure, it is worth observing 
that, in fact, Israel struck Syria in 2007 and struck targets 
within Syria during the course of the civil war, and Syria did 
not retaliate. Israelis struck the Osirak Iraqi nuclear reactor 
in 1981, and Iraq did not retaliate.
    I think it would be extremely unwise to assume that Syria 
would decline to retaliate. I think it is extremely unwise to 
assume that if we acted on the declared basis of deterring 
further Syrian chemical weapons use, that in order for Assad to 
establish his own credibility, he might use them again simply 
to demonstrate that he is not weak and irresolute, but it is an 
empirical fact that in the past, Syria has occasionally 
declined to respond when struck by outsiders.
    Mrs. Brooks. Just one follow-up very briefly with respect 
to Syria not responding, while we are so engaged and focused on 
Syria, does this not give Iran further time to develop its 
nuclear capabilities and take our attention away from Iran?
    Dr. Biddle.
    Mr. Biddle. I would hope that the administration is able to 
chew gum and walk at the same time and that the parts of the 
administration that are engaged on the Iranian issue remain 
engaged on the Iranian issue.
    Admittedly, the time of senior leadership is always a 
scarce resource, and it is currently being devoted 
overwhelmingly to Syria. I would hope however, in the interest 
of good government, that this does not significantly undermine 
our diplomacy towards Iran.
    Mrs. Brooks. Thank you.
    I yield back.
    Chairman McCaul. The gentleman from Texas, Mr. Vela, is 
recognized.
    Mr. Vela. General Scales, what is the method by which 
enemies would attempt to introduce chemical weapons into this 
country?
    General Scales. That is an excellent question. The answer 
is, it is almost an endless variety of opportunities for 
following reason. Smuggling a nuclear weapon into this country 
is a very, would be horribly, a very, very complex endeavor. 
But remember, when we are talking about smuggling sarin, we are 
talking about bringing in a powder, essentially that is what 
sarin is, before it is mixed with alcohol, and you are, from 
your own State, you are familiar with your southern border. The 
Mexicans are, the cartels, are more than proficient in bringing 
in hundreds of tons of powder every year into Texas. We haven't 
begun to talk about shipping containers, of sarin being 
smuggled aboard people who get through.
    So sarin is a very fungible commodity. It is extremely easy 
to transport. Probably most scary of all, it is very, very 
simple to use.
    Sarin is heavier than air. If you can put it into 
something, for instance, like a large air conditioning duct in 
a subway, as the Japanese did a few years ago, or in a large 
apartment building or on a military installation, the effects 
would be catastrophic.
    Now having said that, if you have the recipients, as we say 
in the military, warned and prepared, the effects can be 
minimal. We went into Iraq in Desert Storm fully prepared for 
Saddam to use sarin, and he didn't for that reason. But when 
you talk about the innocents, when you talk about people who 
are caught by surprise at 2:30 in the morning, if this stuff is 
properly dispersed, as I said before, the effects could be 
absolutely catastrophic.
    Mr. Shays. Could I just jump in for a second?
    Chairman McCaul. Of course.
    Mr. Shays. Twenty thousand shells in Russia, chemical 
weapons, no bigger than this, they were put in, they almost 
looked like wine bottles stacked up, building after building. 
You can bring this in. The bottom line is, you can't allow the 
terrorists to get the chemical. If they got the chemical, they 
can bring it in. They will use it because one of the problems 
is sometimes using a chemical, you may go down with it, but 
they don't care.
    Mr. Vela. Congressman, you mentioned a while ago something 
to the effect that a substance could take down a whole stadium. 
What are we talking about in terms of what size of----
    Mr. Shays. We are talking about one shell, excuse me, that 
is maybe three times the size of this bottle of water could 
bring down a whole stadium if it was dispersed in a way; in 
other words, the people, it could destroy the lives of that 
many people.
    Mr. Vela. I guess I will pose this question to both of you: 
How would you assess the risks of chemical weapons being 
brought into this country?
    Mr. Shays. I think it is more likely than not.
    General Scales. I agree with the Congressman.
    Mr. Vela. The reason I bring that up is that, of course, I, 
the City of Brownsville anchors my Congressional district. At 
our port of entry, the Brownsville Matamoros Bridge there is an 
X-ray machine that was installed in 2002, and by the admission 
of Customs and Border Patrol, its use life has expired in 2012. 
I see that as a big problem, and this being of such, these 
issues being of such significant National interest, it boggles 
my mind that we are allowing that to persist.
    I guess if I were going to pose a question about that, I 
would like to hear your thoughts in terms of what we need to do 
in terms of enhancing our security technology at our ports of 
entry.
    General Scales. First of all, I think the best way to 
secure nuclear weapons I guess, as the Congressman says, is at 
the source, to take it out of the hands of the bad guys and do 
it quickly.
    We have a sense, Congressman, that this stuff is 
everywhere. But really, when you look at the facts of the case, 
it is really not. It is concentrated in a very few, in the 
bunkers of very few nations. So the target that we would 
address is small. But once you, once it gets out of a bunker or 
it gets out of a storage facility, it then just becomes a 
crystalline commodity that you could literally just put in your 
hip pocket, and to my knowledge, the X-ray machines and the 
sniffers that we have on the border where you are really have 
no ability to detect sarin.
    Mr. Vela. Thank you.
    Chairman McCaul. I thank the gentleman.
    The gentleman from Pennsylvania, Mr. Barletta, is 
recognized.
    Mr. Barletta. Thank you, Mr. Chairman.
    I want to thank you for calling this very important hearing 
and bring it back again to the purpose of what our committee 
is.
    But first, I want to point out that General Scales, the 
former commandant of the former Army War College in Carlisle, 
Pennsylvania, is in my district, and the Army War College is a 
place where our country's greatest military leaders provide 
their honest feedback about situations like this in Syria.
    General Scales, I want to thank you for your honesty today.
    General Scales. Congressman, I would also like to mention 
that Professor Biddle is also a product of the Army War 
College, and so as I told you before, this is a National 
treasure, and in these difficult times, it is something that 
we, as a Nation, need to preserve.
    Mr. Barletta. Absolutely, in fact, in 2012, the War College 
did what they call an analytical war game where military 
leaders and interagency leaders come together and play out 
events just like this, and it is a truly a treasure for our 
country.
    Again, the focus of this committee is National security and 
keeping Americans safe. As a mayor, back in 2006, I stepped on 
the National stage for a time when I was dealing with a problem 
of illegal immigration. Hazleton, my home town, was 2,000 miles 
away from the nearest Southern Border. I talked then about the 
importance of and Washington's failure of securing our borders.
    Well, now, I am on a bigger stage and I have a bigger 
microphone. So I am going to warn everyone again about the 
importance of securing our borders, especially when we are 
dealing with this issue of illegal immigration here.
    I toured the Southern Border down in San Diego, and I 
crawled down a hole; 80 feet into the ground was a tunnel that 
the drug cartel had dug 2,500 feet long from Mexico inside a 
warehouse in the United States.
    So as we talk about how we deal with illegal immigration I 
think this is very clear what we need to do is secure our 
borders first. Keep Americans safe. That is why we have 
immigration laws. You said something very profound today; you 
were taught keep the main thing the main thing. It is not that 
complicated.
    What I would like to ask you, General Scales, is: How real 
do you think the possibility, we know there is a significant 
presence of Hezbollah in Latin America. We know our borders are 
open. How real is the possibility of Iran engaging in a 
retaliation attack in the United States through its Hezbollah 
proxies in Latin America?
    General Scales. Thank you so much for asking that question 
because as the Chairman of the committee knows, this is 
something that I have been obsessed with for many years.
    One of the problems with the immigration debate in Congress 
is that it mainly focuses on illegal immigrations and perhaps, 
as a secondary effect, the impact of narcotics crossing our 
borders. Both of those are very important, but what is missing 
in the debate, I believe, is that the fact that the largest 
Iranian embassy in the world is in Venezuela and that the fact 
that unregistered aliens, I believe, Mr. McCaul is the phrase 
we use now, are crossing the borders in tens and dozens 
virtually every day from many countries that are not in central 
and South America. So, if the border is porous--and as we spoke 
about earlier, a chemical like sarin is something that you 
could put in a hip flask and get across the border. So the 
danger of border security goes beyond numbers of people and 
tons of narcotics. It is really fundamental to the essence of 
our ability to protect the Nation, particularly now that this 
horrible commodity, called sarin, has been loosed in the Middle 
East, and the bar against its use I would predict will continue 
to lower. Sir, you are spot-on.
    I will also suggest to you that the while the point of 
crossing might be Texas or Arizona or New Mexico, the point of 
impact could very well be Pennsylvania or Montana or New York, 
because once you are across the border, it is nothing more than 
an inter-State trip of a couple of days to put this horrible 
stuff right in the heartland.
    Mr. Barletta. Just one final quick question, do you trust 
Assad will turn over all of his chemical weapons?
    General Scales. Absolutely not.
    Mr. Barletta. Thank you, General.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Nevada, Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman.
    Thanks to you and the Ranking Member for this timely 
hearing.
    Following the events of 9/11, I remember listening to then-
President Bush try to bring all of us as citizens together as 
Americans, not as Republicans or Democrats, but as Americans.
    Today, as President Obama gives an address to the Nation on 
whether to strike the Assad regime because of the use of 
chemical weapons, I hope that all of us as Members of Congress 
and citizens of the most powerful country on Earth will listen 
and act as Americans; not as Democrats or Republicans, but as 
Americans.
    I have two questions. First, I want to follow up on 
something I think I heard earlier in the hearing on the need to 
support the President of the United States in order to allow 
him to have the leverage to bring forward a negotiated 
settlement in the long term and more immediately to get the 
offer by Syria to turn over their chemical weapons to the 
international community, which, after hearing all of what you 
have had to say, is the ultimate goal here.
    So my question is: Did I hear that correctly, and what 
should the Congress do in order to help the President have the 
strongest leverage possible to achieve that goal of eliminating 
chemical weapons and a negotiated settlement?
    Mr. Shays. I certainly feel that way, and let me just first 
say to you for the record, I believe any President has the 
right to use force and can't wait for Congress sometimes to 
spend 2 weeks or 3 weeks to decide whether they want to 
authorize it. Then the President needs to come back later and 
defend it. So I am saying to you right now, this President has 
the right at this very moment to strike Syria if, as commander-
in-chief, he believes he should.
    What I think is not helpful right now is trying to say, 
well, he blew it; he should have done this, or he should have 
done that. He is our President, and we need to help him gain 
some status and support in his efforts to negotiate with 
countries around the world.
    Frankly, if I were the President, I would go to the 
leadership on both sides and say, I would like to send 
delegations of Members of Congress to go to various countries 
to ask for their support to get these chemicals out of Syria.
    Mr. Horsford. Thank you.
    The second question: Secretary Kerry has said recently in 
our briefings that chemical weapons have not been used on U.S. 
troops since World War I. So, as this hearing is talking about 
the implications for the homeland, obviously, our goal should 
be to ensure that our military men and women are never faced 
with the exposure of chemical weapons, let alone those of us 
broadly.
    So, General, will you respond to that?
    General Scales. Sure. Choosing which weapon to use in 
warfare is always a trade-off between risk and reward. That is 
the reason we haven't seen nuclear weapons used since 
Hiroshima, because for either side, if you do the calculus, 
there is simply no reward.
    To some extent, that applies to chemical weapons. Recall 
that, in 1991, when the United States crossed the berm into 
Iraq, we clearly told the Iraqi leadership not to do it because 
the consequences would be unacceptable. Saddam Hussein, bad as 
he was, made a cold, calculated decision based on two facts. 
Fact No. 1 is if the soldiers are trained, prepared, equipped, 
and warned, the effect of these weapons on soldiers is minimal, 
and they were. Second, the payback for using chemical weapons 
against the United States would have been overwhelmingly 
destructive.
    The same with Hitler in World War II. He had invented 
sarin, or his people invented sarin. Hitler didn't use it 
against other governments. He thought about using it at 
Normandy in 1944, and he thought better of it. Why? Because he 
thought we had sarin as well, and it was a calculated decision 
not to use it.
    So being strong in war and being unambiguous about what our 
reaction would be to the use of chemicals against us and to 
have soldiers that are trained, prepared, well-equipped, and 
warned is our greatest defense against these weapons.
    Mr. Shays. I would like to quickly jump in and say, we held 
a number of hearings on Gulf War illnesses, and we learned that 
our troops were exposed to defensive use of weapons and, by 
this sense, not offensive. We blew up ammunition depots that 
included chemicals and the plumes went and impacted a whole 
number. It just kind of points out the problem you have with 
having chemicals in a country.
    Chairman McCaul. The Chairman recognizes the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentleman, thank you for being here. I want to begin, and 
if you will indulge me with some statements here and then I 
will get to a couple of questions. I just want to correct the 
record from my standpoint, having served in Iraq where sarin 
gas and VX was found when I was there, and I know it was found 
before I got there. So when we are talking about weapons of 
mass destruction, no, there was not a nuclear warhead on the 
end of an intercontinental ballistic missile on the pad when I 
got there, but we were talking about the very same thing that 
we are talking about today.
    When you go to the issue of trust and credibility regarding 
America or the President, I think it is not America's trust or 
credibility; I don't think that is questioned. I think it is 
the President's, and arguably, in my opinion, he has brought 
that credibility and trust upon himself.
    I mean, I think the American people look further back than 
Iraq and Afghanistan. They can look back to the Bay of Pigs 
under Kennedy. They can look back to Carter and Desert I, where 
George Bush--and Ronald Reagan in Granada, et cetera, et 
cetera, et cetera. I think it is appropriate when statements 
are made and, in some people's opinion, capriciously, we are 
going to attack the target, then you publish the target list, 
then you back up and say we are going to go the Congress, that 
the President has blinked already. His credibility is on the 
line, not America's.
    But I think it appropriate if this President is going to be 
the commander-in-chief in a war, and he would be, as he should 
be, that Americans weigh in based on his credibility and his 
prowess to prosecute such an action. I think he has diminished 
that in many people's minds, which is why not only people in 
this building and this complex, but people around America are 
weighing in. It is a function of it. I am not saying it is the 
only part of it, but I am saying it is a function of their 
decision making.
    In the briefing that I received that many of you did, Syria 
has used this in some way, the regime, 11 times before, at 
least it is questionable 11 times before. So why did we wait to 
12? That is a factor.
    This Russian deal is important, too, and it should be 
considered. But I would also say that, as we say in the Army, 
that no plan survives first contact, and there is going to be a 
price to pay for Russia's involvement and they would 
desperately like to get more involved in the Middle East, in 
foreign affairs and world affairs and take the upper hand, and 
Americans, that not a position we feel comfortable with nor 
should we.
    So, with that, I just wanted to correct the record in that 
regard. Getting back to the issue at hand, my concern, as a 
product of the War College as well, is about a strategy. I 
asked Ambassador Ford in March what our strategy was once the 
red line was crossed, and I would argue with you that an answer 
of ``I don't want to go there'' is not an appropriate response 
where this is concerned. We are here at this point, and so we 
have to make the best of it, and we want to support the 
President.
    But to General Scales or anybody on the panel here, 
wouldn't sealing, so to speak, in some terms, the Syrian border 
be a part of some kind of a strategy arguing what we have 
already talked about about those chemical weapons coming out of 
Syria? They are in Syria. It is regrettable. We don't like what 
is happening there. But isn't it arguably better for the free 
world to have them contained within the borders of Syria as a 
strategy to consider?
    General Scales. Wow, first of all, let me answer your first 
question. You know, Presidents always have the opportunity to 
say, ``no,'' and sometimes saying no carries with it the 
expenditure of more gravitas and personal equity than saying, 
``yes.'' As I have said before, my great hero is Dwight D. 
Eisenhower, who said, ``no,'' eight times in the middle of the 
Cold War and came out in 1960 as one of our most revered 
Presidents. So that certainly is always an option, and it 
doesn't necessarily reduce your credibility.
    To answer your question, I never thought of that. But I 
will say this: The Syrian border is far more porous than our 
own. You may recall during the Iraq war that the rat line, 
which ran from Damascus to Baghdad, ran down the Tigress and 
Euphrates Rivers, and it was an open highway.
    Perhaps, we could, but we would have to get the cooperation 
of countries like Iran and Iraq to stop this. Perhaps we could 
do it, but, boy, that would be an incredibly difficult task.
    But I take your point. I hadn't really considered that, and 
I think it is excellent.
    Mr. Shays. Could I just make a quick comment? It is 
unfortunate we don't have a status of force agreement with 
Iraq. But in my dealings with Turkey, they are so suspicious of 
everything, our airfield in Incirlik, they will hold us up, 
Members of Congress want to get out, they will hold us up 2 
hours just to let us know they are the boss. I think it would 
be very difficult to get their cooperation. But, you know, it 
is worth trying.
    Mr. Perry. Mr. Chairman, just one last question. Should we 
be more concerned as Americans talking about the border as Mr. 
Barletta did with a state-sponsored response in the way of 
potentially sarin gas coming out or VX or anything and being 
transported into our country, or individual organization 
responses, al-Nusra, al-Qaeda, associated affiliates? What is 
more likely?
    General Scales. I think terrorist groups far more likely.
    Mr. Shays. Absolutely.
    Mr. Perry. I yield back. Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman recognizes the gentlelady 
from New York, Ms. Clarke.
    Mr. Shays. We are impressed with her willingness to stay. 
Thank you.
    Ms. Clarke. Well, let me thank you, Mr. Chairman and 
Ranking Member, and thank all of you.
    I have been trying to soak in as much information as I 
possibly can in the hopes of being able to decide the best, to 
the best of my ability.
    It is good to see you Congressman, welcome back.
    I want to focus on the domestic end, and I think it is 
important that we put what we have been talking about in 
context. I am concerned about vulnerabilities and the war 
footing of our Nation, and we haven't discussed that as a 
Nation in a very, very long time.
    Most Americans seem to have a remote view to military and 
war, and in this case, I am concerned about how strong we are 
as a Nation, how resilient we are as a Nation in our ability to 
sort of stand up the type of operations that protect us from 
any type of retaliation.
    I mean, people are thinking about, you know, would Syria 
have the ability? I am concerned about lone wolves that are 
stimulated by the fact that we are now engaged in some sort of 
military activity. I am concerned about a lone wolf, along with 
a cyber attack. I am concerned about those types of things. I 
am concerned that we are in an era of sequestration right now.
    I am concerned about a weakened economy that is trying to 
bounce back and that seems to move in different directions, 
depending on which way the wind is blowing, right? So we do a 
military strike; the next thing you know the Dow is dropping. I 
am just wondering how much we are looking internally at our 
ability and our strength to withstand another military action 
of some sort.
    So I want to ask, what confidence do you have that we as a 
Nation have the wherewithal to stand up a robust defense from 
America as Americans to back up what we are putting out there. 
This is not time for wolf tickets, right? We want to really 
show we have what it takes. That means all of us have to show 
that we have what it takes. Right now, we are in sequestration. 
So I would like to hear from you gentleman what you think about 
that.
    General Scales. First of all, that is a superb question to 
ask as this hearing ends. One of the things that absolutely 
amazes me as a soldier and, of course, now as a citizen, is the 
amazing wisdom of the American people.
    You represent your constituents and you carry their voice 
into this House, and that is very admirable. But the thing I 
find so amazing is to listen to the newscasts and talk to 
Congressmen who interact with their constituents and sense the 
collective wisdom of the people. It is hard to sell an American 
a wolf ticket, to use your phrase, because they have to live 
from day to day, pay the bills, put the kids in school, earn a 
living, and all of that takes obviously primacy.
    But when something like this happens, as you suggest, the 
American people are very wise in weighing the options and 
coming up with an opinion. I believe that if the threat is real 
and systemic, if the American people feel in their soul that 
they are threatened by some exterior threat, then all the 24-
hour news organizations, no matter how hard they try, will not 
change the collective opinion of the American people to act. I 
hope the people outside this country who are listening perhaps 
to this hearing will understand that. You can only push the 
American people so far. When they sense that they are 
threatened, I believe that they are ultimately going to do the 
right thing.
    Ms. Clarke. So my question is, again, I don't know how much 
100 ballistic missiles cost. What I do know is we have been 
cutting our budget tremendously as a Nation, and we put two 
wars on the credit card, which we are still trying to pay off. 
Where are we when we talk about a military strike? Again, I 
mean, listen, the atrocities are real. No one can look at what 
we have been given in terms of intelligence and say that this 
is not the most horrific incident that we have seen in the 
Middle East with a nation against its own people. However, 
there is a cost that we are talking about incurring. I want to 
get a sense of, are we going to have to cut budgets? Does this 
go back on the credit card? How do we reconcile it?
    I understand when American people feel threatened, we will 
go in the hole, but I don't want to come back later and have my 
colleagues saying, now everyone starves until we pay this off.
    General Scales. Well, the cost, to answer your question, 
will ultimately be north of a half a billion dollars. Each of 
these missiles is $1.5 million apiece presuming that we want to 
replace them in order to maintain our stockage. We have already 
fired 250 against Libya, so I think there are some ships out 
there with empty magazines.
    I absolutely agree with you. There is an old equation that 
power equals capability times will. If you reduce the will, the 
equation is that you that you reduce power. But if you reduce 
capability, you reduce it as well. It is multiplicating factor, 
rather than an additive one. So if you reduce them both, then 
sometime in the future, to your point exactly, the total power 
that we can project as a Nation is going to be diminished in 
proportion, and it bothers me.
    Ms. Clarke. Thank you, Mr. Chairman.
    Chairman McCaul. Let me thank the witnesses for your 
extraordinary testimony on the eve of a 9/11 and on the eve of 
a very important vote before the Congress. The news reports I 
have received just in the short time of this hearing indicate 
that that vote may be shifting toward a vote on a U.N. 
resolution. In a situation where I have said there is no good 
outcome, that may be the best that we can possibly hope for.
    With that, thank you for being here. The record will stay 
open for 10 days. This hearing is adjourned.
    [Whereupon, at 12:25 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
